<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                         TUESDAY, MARCH 9, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:35 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Dianne Feinstein (chairman) 
presiding.
    Present: Senators Feinstein, Leahy, Reed, Nelson, Tester, 
Alexander, Cochran, Bennett, and Collins.

                       DEPARTMENT OF THE INTERIOR

                        Office of the Secretary

STATEMENT OF HON. KEN SALAZAR, SECRETARY
ACCOMPANIED BY:
        DAVID J. HAYES, DEPUTY SECRETARY
        PAMELA HAZE, DEPUTY ASSISTANT SECRETARY FOR BUDGET

             OPENING STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Good morning, everyone. I would like to 
welcome you to the Interior, Environment, and Related Agencies 
Subcommittee's second budget oversight hearing.
    This morning, in addition to discussing the Department's 
fiscal year 2011 funding request, Senator Alexander and I would 
like to expand this hearing and take a closer look at the issue 
of renewable energy development on public land. We believe this 
is an extremely important public policy matter with many 
critical questions yet to be answered. Our goal will be to ask 
some of those questions and, hopefully, get the kind of answers 
that will allow the public and the Congress to know precisely 
how the administration intends to move forward in this area.
    We have, I think, four votes at 11 a.m., so we want to move 
right around. We follow the early bird rule, and time is 
limited to 5 minutes a Senator.
    Testifying on behalf of the Department is our former 
colleague, our friend, Secretary Ken Salazar. Mr. Secretary, it 
is very nice to have you back in the Senate, and we look 
forward to your testimony.
    Also, joining us this morning to weigh in on the renewable 
energy issue is David Hayes, the Department's Deputy Secretary, 
and last but not least, we are joined by Pam Haze, the Deputy 
Assistant Secretary for Budget. We welcome all of you here.

                            CALIFORNIA WATER

    Before we begin, I would like to take a moment to thank 
you, Mr. Secretary, for the efforts that you and your staff 
have made over recent weeks to supply additional water to 
California farmers using administrative means consistent with 
the biological opinions. Mike Connor, Commissioner of 
Reclamation; David Hayes, sitting on your right; Don Glaser and 
Ron Milligan in the region have done yeoman's work on this 
issue, and I greatly appreciate the effort that has been made. 
Water is one of the more painful parts of our job it seems.

                                 BUDGET

    Turning now to the budget, as proposed by the President, 
the Department's funding request for fiscal year 2011 totals 
$11.1 billion for the agencies and programs under the 
jurisdiction of this subcommittee. While that amount is 
virtually unchanged from what was provided last year--so the 
budget is flat--there are significant funding increases that we 
should look at in several program areas.
    An additional $100 million is requested for land 
acquisition. That is 31 percent more than last year.
    An additional $35 million is requested for the climate 
change adaptation initiative. That is an additional 26 percent 
increase.
    And an additional $20 million is requested for beefed-up 
law enforcement in tribal areas. Most of that is new money that 
will allow for 81 FBI personnel.
    Now, Mr. Secretary, each of these is an important priority 
for you--we understand that--and for the administration. And I 
know you will speak passionately about these programs.
    My concern is that in order to pay for these, the 
administration is proposing cuts elsewhere that may well be 
untenable. And so let me spell some of that out.
    The construction accounts at the National Park Service 
(NPS), FWS, the Bureau of Land Management (BLM), and the Bureau 
of Indian Affairs (BIA) would be cut $164 million. That is a 33 
percent reduction from the current level. Now, each of these 
agencies has separate maintenance budgets, but the construction 
accounts are where much of the major repair and restoration 
work is addressed. And that is a problem.
    The administration has also proposed cutting the 
Department's hazardous fuels reduction account by $44 million. 
That is a 21 percent reduction. Given the level of fire on 
public lands, particularly in the Western States, over the past 
several years, that is a cut that is very hard for me to 
understand, let alone support.
    The budget proposes having the various bureaus absorb $108 
million in unfunded fixed costs. Now, these include 
congressionally mandated pay raises, increased employee health 
benefits, and increased rent and utilities. Each of these must 
be paid for but in this budget they are not.
    So where does the NPS come up with the $32 million it needs 
to cover its fixed costs? That question I hope you answer in 
your opening remarks. BIA would have to absorb $19 million in 
fixed costs, and that virtually wipes out the $19 million being 
added for law enforcement.
    The administration has also proposed cutting $78 million 
across the board as a result of various management 
efficiencies, including $18 million in information technology. 
The budget suggests consolidating e-mail systems and computer 
help centers as the way to make this work. Now, I support those 
actions, but the amount that can be cut from each agency are 
estimates of potential savings.
    So the question is immediately raised, what happens to law 
enforcement in our National Parks and refuges or Indian 
education or the fire program if we adopt those budget cuts and 
then find out that the savings do not materialize? So we hope 
you will address those.
    The Department has made great progress on several fronts 
over the last year or 2, and I am aware that your budget was up 
14 percent last year. So maybe you can absorb some of this, but 
our staff has said it is going to be very difficult if not 
impossible.
    And finally, Mr. Secretary, before turning to Senator 
Alexander for any comments he might care to make, I would just 
like to congratulate you on the tremendous job you have done in 
utilizing the $3 billion provided through the stimulus, or the 
Recovery Act. I know that you have until September 30 to 
obligate all the funds, but I understand that the Department 
has made significant progress in awarding 3,400 Recovery Act 
projects. I also understand that many of these projects have 
come in below budget, which is very unusual around here, and 
because of that savings, it will enable you to undertake an 
additional 140 projects at our parks and wildlife refuges. So 
we really appreciate this. I think it shows solid management 
and is really impressive.
    Now, I would like to turn this over to my friend and my 
colleague and the distinguished ranking member of this 
subcommittee, Senator Alexander.
    Senator Alexander. Thanks, Madam Chairman. It is good to 
see you and especially to see our friend Ken.
    The Department lost one of its fine public servants in Sam 
Hamilton. We all regret that and admire his life and public 
service, 30 years with the FWS.
    I appreciate the difficult financial environment.
    I thank you for your work, especially with Congressman 
Shuler on the North Shore Road to bring that to a conclusion. 
That was a difficult problem that has been going on since World 
War II, and I think your decisions have helped bring that to a 
successful conclusion.
    I also thank you for coming to the 75th anniversary of the 
Great Smoky Mountain National Park where you attracted nearly 
as much attention as Dolly Parton did.
    Senator Feinstein. Without the assets.
    Senator Alexander. Well, he had a hat.
    Senator Leahy. I have so many things I want to say.
    Senator Feinstein. Do not say them.
    Senator Alexander. Senator Dirksen once told Senator Baker 
he should try to be guilty occasionally of unexpressed 
thoughts.
    So I think all of us will do that here.
    The Land and Water Conservation Fund (LWCF), I am going to 
reserve my comments until the questions, but here are the areas 
that I will be interested in. The difference between the 
funding for Federal and for State-side of land and water. The 
State comes up pretty short.
    You and I have talked about additional operations and 
maintenance fundings for the National Parks. Senator Feinstein 
just talked about that.
    I continue to be concerned because the Great Smoky 
Mountains, because of historical circumstances, has two or 
three times the visitors of our other major parks, but gets 
about one-half the funding of similar parks.
    I would like to mention Education in the Parks initiative 
which we worked on last year, and as Senator Feinstein said, we 
do not want to destroy the environment in the name of saving 
the environment. At least one major conservation group has 
talked about the renewable energy sprawl, and you have talked 
about treasured landscapes. We simply want to work with you to 
make sure there are clear policies about what is appropriate 
and what is not. I will be giving you a letter later today with 
some suggestions for what I hope could be a part of the policy 
that we are looking forward to receiving from you later, and I 
look forward to your testimony.
    Thank you, Madam Chairman.
    Senator Feinstein. Thank you very much, Senator.
    Mr. Secretary, please proceed.

                 SUMMARY STATEMENT OF HON. KEN SALAZAR

    Secretary Salazar. Thank you very, very much, Senator 
Feinstein, not only for your leadership of this subcommittee, 
but for your leadership on so many issues. More recently I have 
been seeing a lot of you, as has David Hayes, with respect to 
California water and it is a crisis and we hope we find our way 
through.
    Senator Alexander, thank you for your leadership, for 
welcoming me to the 75th anniversary of the Great Smoky 
Mountains, and I look forward to working with you as well on so 
many issues.
    To all of you, the members of this subcommittee, my good 
friends, Senator Collins, who really was the chief sponsor of 
so many movements on the LWCF; to Senator Leahy, who took me 
into Jordan and lots of other places, and under his wing; and 
to Senator Cochran, who in front of this Senate introduced Sam 
Hamilton to be the Director of FWS; and to John Tester, the 
Senator from Montana, who has taken me to Glacier National Park 
and other places, you are a wonderful group of people. It is my 
honor to appear before you today.
    With me today is David Hayes, who is the Deputy Secretary 
of the Interior and has been leading the efforts on California 
water, as well as on climate change and renewable energy within 
the Department. I think you want to hear some comments from him 
briefly after my opening comments.
    And Pam Haze, our Deputy Assistant Secretary for Budget, 
who has put together this budget.
    In the audience, is Steve Black, who is our counselor on 
energy and has worked with you on the monument issues in 
California, Senator Feinstein; Mike Poole, who is Deputy 
Director of the BLM; Mary Catherine Ishee who is heading up our 
renewable energy efforts on the Atlantic offshore wind, as well 
as Gary Frazer from FWS.

                   DEPARTMENT OF THE INTERIOR MISSION

    Let me simply start out by saying the Department of the 
Interior has a very important mission and it is a mission which 
I like to carry out every day, thinking that it is probably the 
most important mission of the executive agencies of the 
Government. That mission simply is to protect the Nation's 
natural resources and the Nation's natural and cultural 
heritage. We do that every day with all of the authorities in 
each of the agencies under my jurisdiction.

                            ECONOMIC IMPACTS

    It is also important, when we think about Interior, to 
recognize there is a huge economic contribution the Department 
of the Interior makes to this country. Whether it is at Acadia 
National Park in Maine or the great wildlife refuges of 
Mississippi, we know there is a huge economic contribution that 
comes from the activities of this Department. Our economic 
analysis, which I had the economists in our Department complete 
about 1 month ago, demonstrates that we generate about 1.3 
million jobs a year out in the private sector. The economic 
contribution that comes from visitation to our National Parks, 
oil and gas production, renewable energy production, and all 
the rest of the activities of the Department nears almost $400 
billion a year. So unlike other parts of the Government, we are 
significant economic generators in each of your States, and we 
are very proud of that.

                                 BUDGET

    This budget reflects tough choices in some very tough 
times. It is not a budget we would be presenting here if we 
were navigating through times where there would be the ability 
to access funds with your support to help us fulfill some of 
the greater visions that we have. So there are tough choices 
here. I think as both Senators Feinstein and Alexander alluded 
to, we had to make some tough choices as we went through the 
budget.

              INFORMATION TECHNOLOGY AND TRAVEL REDUCTIONS

    For example, I know the cuts you alluded to, Senator 
Feinstein, on travel and information technology are just real 
cuts. We are having our employees travel less. We are being 
smarter in how we travel. Information technology--instead of 
spending more than $1 billion a year, which we are spending in 
the Department with each bureau doing its own thing, we are 
doing a consolidation so we can have better information 
technology but also doing it in a way that saves money.
    For my time in the Department of the Interior over the last 
14 months, I have had 5 simple priorities.

                       ENERGY AND CLIMATE CHANGE

    The first is to work as part of the Obama team, working 
with this Congress on a new comprehensive energy program for 
the Nation and tackling the issues of climate change which 
affect each and every one of your States.
    On the energy front, we have moved forward with a robust 
conventional energy program, which has included both onshore 
leasing and production for oil and gas and other resources, as 
well as offshore. In comparison to what has happened in the 
previous 8 years, I think we have stayed apace with respect to 
the rates of leasing of the public lands for oil and gas 
production, including in the Outer Continental Shelf (OCS).
    With respect to renewable energy, we have launched a new 
direction on renewable energy, and this budget proposes that we 
will be standing up more than 9,000 megawatts of renewable 
energy power just on the onshore. With respect to the offshore, 
in particular, we have a focus on the Atlantic because so many 
of the governors along the Atlantic want us to move forward 
with an offshore renewable energy program. We think there is 
great hope there, and we are very focused on making that 
possible.
    As part of the energy future for America and a 
comprehensive plan, we also have tackled the realities of 
climate change. I know there is great debate here today and 
will be in the year ahead about what we do with energy and 
climate change, but I see it when I go to Glacier National 
Park. I am told by our scientists there that the glaciers will 
not be there by the year 2020, or in the Apostle Islands in 
Lake Superior where the waters are 5 degrees warmer than they 
were just 30 years ago, or in the Colorado River Basin, which 
is so water-short and our projections are that we will be 
having 20 percent less water there than we have had 
historically. Those are huge issues that we have to address.

                          TREASURED LANDSCAPES

    Second, America's great outdoors. Senator Alexander, from 
the days of President Eisenhower and on, has carried on the 
baton moving forward with what we do with our great outdoors. 
It is important for hunters, for anglers, and working in the 
right way with local governments and respecting private 
property rights, that we move forward with an agenda on that, 
and the LWCF increases included in this budget are very much a 
part of that agenda.

                                 WATER

    Third, water. We have initiatives in here with respect to 
new water management initiatives on conservation and reuse and 
recycling, as well as dealing with specific water conflicts we 
face including the water conflict in the San Francisco Bay-
Delta. Hopefully, those will help us move forward to a 21st 
century approach to water conservation.

                       YOUTH IN NATURAL RESOURCES

    Fourth, youth. We educate millions of young people in our 
national parks and wildlife refuges across the country. We have 
about 400 million visitors throughout the Department's 
facilities. Many of them are young people, and we actually 
educate in the classroom more than 2 million young people just 
through the NPS alone. Through the employment side of things, 
we have moved forward with a robust jobs program for young 
people. Our hope is that we will be able to have more than 
12,000 young people working as seasonals with the Department of 
the Interior.

                 EMPOWERING NATIVE AMERICAN COMMUNITIES

    And finally, Native Americans. We have had a long and 
sordid and negative history and conflict with the Native 
Americans of the United States, 564 tribes who have a nation-
to-nation relationship with the United States and a trust 
responsibility with the Department of the Interior. This budget 
supports addressing many of the issues in Indian country, 
including law enforcement.

                           PREPARED STATEMENT

    I would like to have David Hayes, Madam Chairman, give a 
quick overview of the renewable energy efforts.
    [The statement follows:]

                 Prepared Statement of Hon. Ken Salazar

    Madam Chairman and members of the subcommittee, I am pleased to be 
here today to present the details of the 2011 budget request for the 
Department of the Interior. I know that you have a particular interest 
in the Department's role in building a new energy future, and look 
forward to speaking with you about this important issue. I want to 
thank the Chairman, the members of this subcommittee and the 
Appropriations Committee for your support of our Department and ongoing 
reforms that are important to the stewardship of the Nation's natural 
and cultural resources and to fulfilling our trust responsibilities to 
American Indians and Alaska Natives. Your support for Interior's 
programs is helping us to build a strong foundation to achieve a clean 
energy future, tackle climate change impacts, conserve our treasured 
landscapes, and empower tribal communities. I look forward to working 
closely with you to continue to advance these priorities.
    I look forward to a continued partnership with you and your staff 
to address another issue--California's water problems. The situation in 
California's Bay-Delta ecosystem is a full-blown crisis that requires 
all hands on deck. Although many of California's water managers served 
by the Federal Central Water Project anticipate receiving adequate 
water supplies, some managers face a fourth straight year of uncertain 
water supplies due to the legacy of 3 straight years of drought and the 
near collapse of the ecosystem, which has affected deliveries to 
agricultural and urban water customers south of the delta and 
devastated the commercial salmon fishery.
    My Deputy Secretary, David Hayes, is leading Interior's 
implementation of the administration's Interim Federal Action Plan for 
the Bay-Delta ecosystem. Interior, through the Bureau of Reclamation 
(BOR), Fish and Wildlife Service (FWS) and U.S. Geological Survey 
(USGS), has a key role in this plan. In the 2011 budget before this 
subcommittee and your colleagues on Energy and Water Development, the 
Department requests $155.2 million for studies, projects and other 
efforts directly in the Bay-Delta, an increase of $50.6 million above 
2010. In addition, the budget includes $72.9 million for WaterSMART 
grants and studies to support water recycling and reuse projects and 
address water availability issues throughout the country.

                              INTRODUCTION

    I am honored to serve as the 50th Secretary of the Interior and to 
oversee this Department and its vast domain. Our mission is as simple 
as it is profound. We protect America's natural resources and cultural 
heritage. Our land and community-based programs touch the lives of most 
Americans, including 1.7 million American Indians and Alaska Natives.
    Interior manages 500 million acres or about 1 in every 5 acres in 
the United States, including 392 national park units, 551 wildlife 
refuges, the 27 million acre National Landscape Conservation System, 
and other public lands. These places are treasured landscapes. They 
provide us with scenic landscapes, recreational opportunities and they 
tell our history and our varied culture. They serve as economic engines 
for tourism and growth opportunities for recreation, drawing visitors 
and supporting jobs and businesses in surrounding communities.
    The Department's public lands and 1.7 billion acres on the Outer 
Continental Shelf (OCS) supply nearly one-third of the Nation's 
domestic energy production. These resources are vital to the Nation's 
energy security and provide economic returns to the Nation. In 
addition, the mineral and timber resources that are from the public 
lands support industry, help to pave our roads, and build our homes.
    The Department of the Interior's people, programs, and information 
have an impact on all Americans. Interior recently analyzed the 
economic impacts of its programs and activities, and estimates that the 
Department generates the following in economic benefits: The Department 
supports more than 1.3 million jobs and more than $370 billion in 
economic activity. Parks, refuges, and monuments generate more than $24 
billion from recreation and tourism. Conventional and renewable energy 
produced on Interior lands and waters results in $292 billion in 
economic benefits and the water managed by the Interior supports more 
than $25 billion in agriculture.
    The Department fulfills its special responsibilities to American 
Indians and Alaska Natives, managing one of the largest land trusts in 
the world including more than 55 million surface acres and 57 million 
acres of subsurface mineral estates held in trust for Indian tribes and 
individual Indians, more than $3.6 billion of funds held in more than 
2,700 trust accounts for approximately 250 Indian tribes, and more than 
380,000 open Individual Indian Money accounts. The Bureau of Indian 
Education school system provides services to approximately 42,000 
students in 23 States attending 183 elementary and secondary schools 
and supports 30 tribally controlled community colleges, universities, 
and postsecondary schools.
    The Department of the Interior is truly the Department of America. 
We are uniquely positioned to provide enduring benefits to the American 
people. We will invest the resources included in the 2011 budget and 
make wise and prudent investments that will allow us to maximize 
opportunities to realize the potential of our lands and waters, 
resources, and people.

                             THE FIRST YEAR

    In January 2010, I celebrated my first anniversary as Secretary of 
the Interior by recognizing the achievements of Interior's 70,000 
employees, including:
  --Restoring the Everglades.--Beginning construction of the 1-mile 
        bridge on the Tamiami Trail and breaking ground on the Picayune 
        Strand Restoration project in the Everglades in Florida--to 
        restore water flows and revive 55,000 acres of wetlands for 
        wildlife habitat;
  --Negotiating a Settlement of the Long-running and Highly contentious 
        Cobell v. Salazar class-action lawsuit.--Resolving trust 
        accounting and management issues after 14 years;
  --Advancing Renewable Energy Development.--Establishing renewable 
        energy coordination offices in four States and teams in six 
        States to facilitate renewable energy production on public 
        lands and issuing four exploratory leases for renewable wind 
        energy production on the OCS;
  --Moving forward to invest $3 billion available from the American 
        Reinvestment and Recovery Act in facility renovation and energy 
        efficiencies, habitat restoration, increasing water supplies 
        and water conservation, supporting renewable energy 
        development, and reducing human hazards;
  --Restoring confidence and accountability in our energy programs by 
        beginning an orderly termination of the Royalty-in-Kind program 
        and reforming the management of onshore oil and gas resources;
  --Coming to the aid of drought-stricken California with emergency aid 
        and infrastructure investments;
  --Expanding Opportunities for Youth.--Employing 8,200 young adults in 
        2009;
  --Opening the Crown of the Statue of Liberty for Public Access.--The 
        Crown has been closed to the public since 9/11;
  --Ending a Stalemate at the Flight 93 National Memorial.--Completing 
        the acquisition of land in cooperation with willing sellers and 
        clearing the way for construction of a memorial to honor the 
        Nation's heroes;
  --Delisting the Brown Pelican.--A case of complete recovery for a 
        species that was first listed as endangered in 1970;
  --Increasing Transparency.--Reversing and withdrawing flawed oil and 
        gas leases with potential impacts to national parks in Utah and 
        oil shale research, development, and demonstration leases that 
        may have shortchanged taxpayers; and
  --Helping to negotiate a collaborative solution that would end 
        decades of conflict and potentially allow for the restoration 
        of the Klamath River Basin in California and Oregon.

                      OVERVIEW OF THE 2011 BUDGET

    Interior's 2011 budget reflects an aggressive agenda in the context 
of challenging fiscal times. The 2011 Interior budget request for 
current appropriations is $12.2 billion, $38.7 million or 0.3 percent 
below the level enacted by Congress for 2010. Permanent funding that 
becomes available as a result of existing legislation without further 
action by the Congress will provide an additional $5.8 billion, for 
budget authority totaling $18 billion for Interior in 2011.
    Within this amount, the budget proposes investments for high-
priority goals and initiatives. With the 2011 budget, the Department 
will:
  --Implement a comprehensive New Energy Frontier strategy that creates 
        jobs, reduces the Nation's dependence on foreign oil, and 
        reduces environmental impacts. The budget requests an increase 
        of $27.4 million for renewable and conventional energy 
        programs.
  --Confront the realities of climate change by launching an integrated 
        strategy for Climate Change Adaptation. An increase of $35.4 
        million is requested to implement the Department's integrated 
        program.
  --Develop a 21st century conservation agenda that protects Treasured 
        Landscapes. The 2011 budget includes increases of $106 million 
        for Land and Water Conservation Fund programs and $71.4 million 
        for investments in major ecosystem restoration projects in the 
        Chesapeake Bay, California's Bay Delta, the Gulf Coast of 
        Louisiana and Mississippi, and Everglades.
  --Tackle the water challenges facing the country with a new strategy 
        to Sustain and Manage America's Resources for Tomorrow. The 
        Department's WaterSMART sustainability agenda includes 
        increases of $36.4 million.
  --Engage America's Youth in Natural Resources.--The budget increases 
        funding for youth programs by $9.3 million.
  --Honor Trust Responsibilities and Empowering Tribal Nations.--The 
        budget includes targeted increases for contract support and 
        other tribal priorities.
    These increases are possible within a level budget as the 
Department is proposing $750 million in terminations, reductions, and 
management efficiencies and absorption of $108.7 million in fixed 
costs.
    The 2011 request includes $11.1 billion for programs funded in the 
Interior, Environment and Related Agencies Appropriations Act. This is 
$16.7 million, or 0.2 percent, below the level enacted for 2010. The 
2011 request for the BOR and the Central Utah Project Completion Act, 
funded in the Energy and Water Development Appropriations Act, is $1.1 
billion, $22 million or 2 percent below the level enacted for 2010.
    In 2011, Interior will continue an exemplary record of producing 
revenue for the U.S. Treasury. The estimate for revenue collections by 
the Department in 2011 is $14 billion, more than offsetting the budget 
request for current appropriations.

                          NEW ENERGY FRONTIER

    The Department of the Interior oversees one-fifth of the Nation's 
landmass and more than 1.7 billion acres of the OCS. As the steward of 
the Nation's energy and mineral estate, the Department has a leadership 
role, promoting clean energy that can reduce climate impacts, and 
responsibly developing conventional energy sources to reduce reliance 
on foreign oil.
    The New Energy Frontier initiative will create clean sources of 
energy using the Nation's vast domestic resources. The New Energy 
Frontier initiative invests $73.3 million in renewable energy programs, 
an increase of $14.2 million more than 2010. The initiative includes $3 
million for BLM to focus on the environmental elements of renewable 
energy projects, $3.2 million for Materials Management Service (MMS) 
region-specific planning needs, $3 million for USGS to analyze and 
document the effects of renewable energy on wildlife populations, $4 
million for FWS to carry out endangered species consultation and other 
wildlife conservation efforts and provide timely environmental review 
of projects, and $1 million for BIA to support renewable energy 
development efforts on tribal lands.
    The Department has a High Priority Performance Goal to increase 
approved capacity for solar, wind, and geothermal energy resources on 
Interior-managed lands, while ensuring full environmental review, by at 
least 9,000 megawatts by the end of 2011.
    The 2011 budget continues support for the development of 
conventional energy, with $460.2 million in BLM, MMS, and BIA. This is 
a net increase of $13.1 million more than the 2010 level. Within this 
requested level, there is an increase of $4.4 million for MMS's 2007-
2012, 5-year program and $10 million for audit costs to support the 
transition from Royalty-in-Kind to Royalty-in-Value. The 2011 budget 
increases the MMS inspection fee on OCS above-water oil and gas 
facilities by $10 million. A reduction of $13 million is proposed in 
the net BLM oil and gas program appropriation, which is offset by $10 
million in new inspection fees in the onshore oil and gas program; the 
remaining $3 million reduction results from the completion of a 
legislated energy study. BIA's budget includes an increase of $1.5 
million for conventional energy leasing activities on the Fort Berthold 
Reservation, including support for a ``one-stop-shop'' to streamline 
development activities in the area.

                       CLIMATE CHANGE ADAPTATION

    Resource managers consider climate change to be the single most 
challenging issue they face. In order to equip them with the tools and 
strategies they need, Interior's Climate Change Adaptation initiative 
will investigate the causes and formulate solutions to mitigate climate 
impacts to lands, waters, natural, and cultural resources. As the pre-
eminent manager of lands and resources, Interior will leverage its 
experience and expertise in partnership with other governmental and 
nongovernmental entities. Interior's Climate Science Centers and 
Landscape Conservation Cooperatives will conduct and communicate 
research and monitoring to improve understanding and forecasting for 
those natural and cultural heritage resources that are most vulnerable 
to climate change impacts.
    The Department's High Priority Performance Goal for Climate Change 
Adaptation is to identify areas and species most vulnerable to climate 
change and begin implementing comprehensive adaptation strategies by 
the end of 2011.
    The 2011 budget includes $171.3 million for the Climate Change 
Adaptation Initiative, an increase of $35.4 million more than 2010. 
This includes continued investments in the USGS National Climate Change 
and Wildlife Science Center ($8 million), which will serve as the nexus 
for 8 Climate Change Science Centers; expansion of monitoring in USGS 
($1 million) and FWS ($8 million) that will be integrated, 
standardized, and accessible to Interior bureaus, partners, and the 
public; expansion of the USGS carbon sequestration project by $2 
million; expanded science and planning capacity in FWS ($8.8 million) 
and BLM ($2.5 million) to support additional Landscape Conservation 
Cooperatives; and FWS adaptive management activities with private 
landowners ($2 million). Beginning with the 2011 budget, the BOR and 
Bureau of Indian Affairs (BIA) identify dedicated climate change 
funding, including an increase of $3.5 million for Reclamation basin 
studies and scientific support and $200,000 for BIA participation in an 
LCC.

                               WATERSMART

    The 2011 budget proposes a sustainable water strategy to assist 
local communities to stretch water supplies and improve water 
management. A High Priority Performance Goal is established to enable 
capacity to increase water supply for agricultural, municipal, 
industrial, and environmental uses in the Western United States up to 
350,000 acre-feet by the end of 2011 through the BOR's conservation 
programs including water reuse and recycling and WaterSMART (formerly 
challenge) grants.
    The budget for the WaterSMART program--Sustain and Manage America's 
Resources for Tomorrow--includes $72.9 million, an increase of $36.4 
million more than the 2010 enacted level for sustainability programs in 
Reclamation and USGS. Reclamation will use $62 million, an increase of 
$27.4 million, to improve water management by encouraging voluntary 
water banks; reduce demand; implement water conservation and water 
reclamation and reuse projects; and take action to improve energy 
efficiency and reduce environmental conflicts. The USGS will use $10.9 
million, an increase of $9 million, for a multi-year, nationwide water 
availability and use assessment program.

                       YOUTH IN NATURAL RESOURCES

    The future of resource conservation depends upon the next 
generation's understanding of the importance of natural resources and 
cultural treasures. The 2011 budget continues the Youth in Natural 
Resources initiative which signals the Secretary's emphasis on youth 
involvement.
    The Department's High Priority Performance Goal for Youth in 
Natural Resources is, by the end of 2011, to increase by 50 percent 
from the 2009 level, the employment of youth (ages 15 to 25) in the 
conservation mission of the Department.
    The budget includes an additional $9.3 million for programs at the 
parks, refuges, and other public lands. This includes $5.8 million for 
youth employment and education programs in the National Park System 
(NPS) and $2 million for youth programs at national wildlife refuges. 
The budget also includes $2 million for FWS and BLM to partner with the 
National Fish and Wildlife Foundation in public-private partnerships to 
engage youth through conservation projects on public and private lands. 
The total for youth programs includes an elimination of a $500,000 
earmark in the FWS Migratory Bird program. In addition, NPS has 
committed to dedicate a total of $6.4 million, $2 million more than 
last year, of recreation fee revenue collected at parks to youth 
projects that benefit the visitor experience.

                          TREASURED LANDSCAPES

    The 2011 budget reflects the President's agenda to protect 
America's treasured landscapes and demonstrates a sustained commitment 
to a 21st century conservation agenda. The budget will allow Interior 
to intensify efforts to protect treasured landscapes; to participate in 
major restoration efforts to restore, protect, and preserve key 
ecosystems; and to operate and maintain landscapes.
    Interior's 2011 budget includes $445.4 million, an increase of $106 
million for Interior Land and Water Conservation Fund programs 
including Federal acquisition and State grants. The budget also 
includes $288.2 million, an increase of $71.4 million targeted to key 
ecosystems for restoration and renewal--the Everglades, California's 
Bay-Delta ecosystem, the Gulf Coast of Louisiana and Mississippi, and 
the Chesapeake Bay.
    President Obama's 2011 budget protects open spaces, forests, and 
wildlife habitat by funding $619.2 million in Land and Water 
Conservation Fund programs in the Department of the Interior and USDA 
Forest Service. This is a 29 percent increase more than the 2010 
enacted and a 104 percent increase more than the 2009 level. With these 
consecutive increases, appropriations from the Land and Water 
Conservation Fund are on track to reach the full funding level of $900 
million annually by 2014.
    The 2011 budget also includes $288.2 million for high-priority 
ecosystem restoration, an increase of $71.4 million from the 2010 
level. This includes $148 million that is requested as part of the 
Interior, Environment and Related Agencies appropriation, an increase 
of $25.9 million. The balance is requested in the BOR budget. These 
ecosystem restoration efforts build on existing programs and efforts 
and feature the following efforts targeted for 2011 funding increases.
    The Department of the Interior, through the NPS, FWS, USGS, and the 
BIA, is a key player in restoring the Everglades ecosystem. In 2011, 
the budget includes $74.5 million, an increase of $6 million more than 
the 2010 enacted level for restoration of the Everglades. This request 
includes $8 million for the Tamiami Trail 1-mile bridge, a component of 
the Modified Waters Delivery project that is being managed by the Corps 
of Engineers.
    The 2011 budget includes an increase of $50.6 million for increased 
efforts by the BOR, FWS, and USGS to conduct studies, projects, and 
other efforts in the California Bay-Delta. These activities will 
support the December 22, 2009, Bay-Delta Interim Action Plan, investing 
in short- and long-term actions for sustainable water and ecosystem 
restoration. This request will fund habitat restoration efforts, the 
development of fish screens and fish ladders, efforts to eradicate or 
mitigate invasive species, various water quality and quantity studies 
and assessments, and other efforts. This includes $5 million for FWS 
and $45.6 million in the BOR budget.
    The FWS owns and manages 10 National Wildlife Refuges totaling 
300,000 acres along the coast of Louisiana and Mississippi. For FWS and 
NPS, there is a net funding increase of $4.8 million in 2011 to support 
the restoration of key fish and wildlife habitat along the Gulf Coast 
of Louisiana and Mississippi and enable FWS to provide its expertise to 
multi-agency projects in the area. This includes a reduction of 
$192,000 to the NPS Gulf Coast Programs.
    The Department's 2011 budget for USGS, FWS, and NPS includes $31.6 
million, an increase of $10 million to expand the Department's efforts 
to conserve and restore the Chesapeake Bay's cultural and natural 
resources.

                       EMPOWERING TRIBAL NATIONS

    The Empowering Tribal Nations initiative includes programs to 
advance nation-to-Nation relationships, improve Indian education for 
students in BIE funded schools, improve the safety of Indian 
communities, and reform trust land management with an ultimate goal of 
greater self-determination. In November 2009, the White House held a 
Tribal Nations Conference, which was attended by more than 400 tribal 
leaders. At the conference, the President pledged to strengthen Nation-
to-nation relationships, improve the tribal consultation process, and 
empower strong and stable Indian communities.
    Overall, the 2011 budget request for Indian Affairs is a reduction 
of $3.6 million from the 2010 enacted amount, after excluding the $50 
million in one-time funding to forward-fund tribal colleges in 2010. 
Maintaining key increases for law enforcement and education programs, 
the 2011 budget request includes programmatic increases of $70.6 
million for the Empowering Tribal Nations initiative. Specifically, the 
2011 budget:
  --Advances nation-to-Nation relationships and Indian self-
        determination by providing additional funding of $21.5 million 
        for contract support costs and the Indian Self-Determination 
        Fund, $2.9 million to assist with the unique needs of small and 
        needy tribes, and $2 million for social services.
  --Protects Indian country by providing $19 million to increase the 
        number of Federal Bureau of Investigations agents that are on-
        the-ground and dedicated to Indian country.
  --Advances Indian education with $8.9 million to address 
        environmental and security concerns at BIA schools and 
        strengthen grant support funding for tribally operated BIA 
        schools.
  --Improves trust land management with increases of $11.8 million to 
        promote both renewable and conventional development on tribal 
        lands, defend and assert Indian water rights, and assist tribes 
        with dam safety.
    The Department's High Priority Performance Goal for Safe Indian 
Communities will achieve significant reductions in criminal offenses of 
at least 5 percent within 24 months on targeted tribal reservations by 
implementing a comprehensive strategy involving community policing, 
tactical deployment, and critical interagency and intergovernmental 
partnerships.
    Settlement of the Cobell Lawsuit.--On December 8, 2009, the parties 
in Cobell v. Salazar announced a pending settlement of the 14-year-old 
class-action lawsuit alleging the Federal Government's mismanagement of 
assets held in trust on behalf of individual Indians. Under the terms 
of the settlement, approximately $1.4 billion would be distributed to 
the class members with each member receiving $1,000 for their 
historical accounting claims and some receiving additional funds 
related to trust management claims. The second part of the settlement 
provides for a $2 billion fund for the purchase of fractionated land 
interests held in trust on behalf of individual Indians. In addition, 
as an added inducement to facilitate the purchase of fractionated land 
interests, up to $60 million of the $2 billion for land acquisition 
will be contributed to an existing, nonprofit organization for the 
benefit of educating American Indians and Alaska Natives. On February 
12, 2010, the President transmitted to Congress a package of budget 
amendments that includes the Cobell settlement. Final disposition of 
the settlement is pending congressional action and approval by the 
Court.

                        MANAGEMENT EFFECTIVENESS

    This subcommittee's leadership on high-priority public lands issues 
has been critically important, including the Wild Horse and Burro and 
Wildland Fire programs as highlighted below. The subcommittee has also 
helped us to accelerate our efforts to protect the public and public 
lands from marijuana trafficking and remediate abandoned mine site 
hazards. The budget maintains a strong commitment to make progress on 
these issues, which are high priorities for the Department.
    Wild Horse and Burro Program.--The current path of the Wild Horse 
and Burro program is not sustainable for the animals, the environment, 
or the taxpayer. On October 7, 2009, I announced a new comprehensive 
long-term plan to put the wild horse and burro program on a sustainable 
track. The plan identifies three management strategies to improve the 
protection and management of wild horses:
  --Managing sustainable herds on western rangelands through the 
        aggressive application of fertility control measures.
  --Establishing new wild horse preserves, primarily in the Midwest and 
        East for horses that must be removed from western rangelands.
  --Providing special designations for selected treasured herds in the 
        West.
    The 2011 BLM budget includes $75.7 million, a program increase of 
$12 million, for the Wild Horse and Burro Management program. The BLM 
LWCF budget includes an increase of $42.5 million to acquire land for a 
wild horse preserve. Initial costs for implementing the proposals would 
be significant as the BLM acquires preserves and works to achieve 
sustainable herd levels on public rangelands, but overall program costs 
should decline in the future. The plan will enable BLM to achieve 
appropriate management population levels on the range in the near 
future.
    Responsibly Budgeting for Wildfire.--The budget responsibly budgets 
for wildfires and includes $933.9 million for Wildland Fire Management, 
an increase of $78 million. The 10-year average of suppression costs is 
fully funded. The budget proposes continuation of a regular suppression 
account and the FLAME Wildfire Suppression Reserve Fund, and includes a 
new Presidential Wildfire Contingency Reserve account. Regular 
suppression will support initial attack and predictable firefighting 
costs; the FLAME funds will be used in cases of severe, complex, and 
threatening fires and be used as a contingency reserve. The 
Presidential Contingency Reserve would require the issuance of a 
Presidential finding when the suppression and FLAME appropriations are 
soon to be exhausted. There is a proposed program reduction of $42.6 
million in the hazardous fuels reduction program. Fire management 
resources would be used in a cost-effective manner in high priority 
areas, such as the Wildland Urban Interface to more effectively reduce 
the risk of wildfire to communities.
    Program Reductions.--Consistent with the President's directive to 
freeze spending on nonsecurity discretionary spending, we took a hard 
look at all of our programs across the Department. We found more than 
$750 million in program reductions for ineffective or low-priority 
programs, including the elimination of one-time funding. Included 
within these reductions is $50 million for a one-time payment to 
forward-fund tribal colleges. This was a one-time increase in the 2010 
budget to provide funding in advance of the academic year, and the $50 
million is not needed in 2011. The budget also contains a $163.9 
million reduction, or 34 percent, for Interior construction accounts. 
These reductions take into consideration the $3 billion Interior 
received through the American Recovery and Reinvestment Act. The 2011 
budget proposes reductions of $38.4 million to terminate the Save 
America's Treasures and Preserve America programs managed by the NPS 
and reduces the Heritage Partnership Program grants for National 
Heritage Areas by 50 percent.
    Management Efficiency Savings.--The 2011 budget assumes management 
efficiency savings throughout the Department totaling $82.1 million. 
All bureaus and program offices, including the Working Capital Fund, 
assume reductions from efficiency savings that are either bureau-
specific or are part of a Department-wide reform. The budget assumes 
$20.1 million in bureau-specific management efficiency savings which 
includes $3.4 million from property consolidation.
    The Department's 2011 budget assumes $62 million in savings from 
three specific Department-wide management initiatives launched in 
2010--travel, information technology consolidation, and strategic 
sourcing. All of these improvements were identified from the 
administration's SAVE Award effort, where Federal employees across the 
country put forward their best ideas to improve Government operations. 
Each of these initiatives targets unnecessary redundancy. Implementing 
management policies will reinforce these initiatives to ensure 
efficiencies are achieved. Savings from these reforms are assumed in 
each bureau and program office budget request commensurate with 
established criteria.

                LEGISLATIVE AND ADMINISTRATIVE PROPOSALS

    The budget assumes enactment of a number of legislative proposals, 
including:
  --Termination of mandatory payments from the General Treasury to 
        States and tribes that have been certified as completing 
        reclamation of abandoned coal mine sites and, consequently, no 
        longer need funds for that purpose.
  --A $4 per acre fee on nonproducing Federal oil and gas leases on 
        Federal lands and waters to provide a financial incentive for 
        oil and gas companies to either get their leases into 
        production or relinquish them so that the tracts can be re-
        leased to and developed by new parties.
  --The budget proposes to make permanent the current arrangement for 
        sharing the cost of administering energy and minerals receipts. 
        Under current law, States receiving significant payments from 
        mineral revenue development on Federal lands also share in the 
        costs of administering the Federal mineral leases from which 
        the revenue is generated through a 2 percent deduction from 
        their payments.
  --The administration will submit legislation to repeal portions of 
        section 365 of the Energy Policy Act. Section 365 diverted 
        mineral leasing receipts from the Treasury to a BLM Permit 
        Processing Improvement Fund and also prohibited BLM from 
        establishing cost recovery fees for processing applications for 
        oil and gas permits to drill.
  --The administration will submit legislation to repeal section 224(b) 
        of the Energy Policy Act of 2005. The repeal of section 224(b) 
        will permanently discontinue payments to counties and restore 
        the disposition of the geothermal revenue to the historical 
        formula of 50 percent to the States and 50 percent to the 
        Treasury.
  --The budget proposes to repeal section 344 of the Energy Policy Act 
        of 2005. Section 344 extended existing deep gas incentives to 
        ensure that Americans receive fair value for federally owned 
        mineral resources.
  --The administration proposes to reauthorize FLTFA, eliminating the 
        2010 sunset date and allowing lands identified as suitable for 
        disposal in recent land use plans to be sold using the FLTFA 
        authority. FLTFA sales revenues would continue to be used to 
        fund the acquisition of environmentally sensitive lands and the 
        administrative costs associated with conducting sales.
  --Federal Migratory Bird Hunting and Conservation Stamps, commonly 
        known as Duck Stamps, were originally created in 1934 as the 
        Federal licenses required for hunting migratory waterfowl. The 
        administration proposes to increase these fees to $25 per stamp 
        per year, beginning in 2011. Increasing the cost of Duck Stamps 
        will bring the estimate for the Migratory Bird Conservation 
        Account to $58 million.
  --The Office of Insular Affairs is currently engaged with the State 
        Department, the Defense Department, and other agencies in a 
        review of the Compact of Free Association with the Republic of 
        Palau. Permanent and indefinite funding for the compact expires 
        at the end of 2010. The 2011 budget seeks to authorize 
        permanent funding for the Compact as it strengthens the 
        foundations for economic development by developing public 
        infrastructure, and improving healthcare and education.
    Through appropriations language, the administration proposes to 
implement the following changes:
  --Create an inspection fee in 2011 for onshore oil and gas drilling 
        activities that are subject to inspection by BLM. The proposed 
        inspection fee is expected to generate an estimated $10 million 
        in 2011, offsetting about 25 percent of the cost of onshore 
        inspections.
  --Continue a fee for processing drilling permits through 
        appropriations language, an approach taken by Congress in the 
        2009 and 2010 Appropriations Acts. A fee of $6,500 per drilling 
        permit was established in 2010, and if continued, would 
        generate an estimated $45.5 million in offsetting collections.
  --Increase the inspection fees in 2011 for offshore oil and gas 
        drilling activities that are subject to inspection by MMS. The 
        increased fees are expected to generate an estimated $20 
        million in 2011, offsetting about half of the cost of 
        inspections.

                      SAM HAMILTON, DIRECTOR, FWS

    Before I conclude my statement, I want to pay tribute to a great 
conservation leader that died last month. Sam Hamilton was a visionary 
and a professional whose years of service and passionate dedication to 
his work have left an indelible mark on the lands and wildlife we 
cherish. His forward-thinking approach to conservation--including his 
view that we must think beyond boundaries at the landscape-scale--will 
continue to shape our Nation's stewardship for years to come. He as a 
remarkable leader and a compassionate, wise, and eternally optimistic 
man.
    When Sam become the Director of the FWS on September 1, 2009, he 
brought more than 30 years of experience with the Service, beginning 
when he was 15 years old working as a Youth Conservation Corps member 
on the Noxubee National Wildlife Refuge in Mississippi. Throughout his 
career, Sam exhibited outstanding leadership and fostered creative and 
innovative solutions to the challenges facing wildlife conservation. In 
the Southeast Region, he supported efforts leading to the establishment 
of a carbon sequestration program that has helped biologists to restore 
roughly 80,000 acres of wildlife habitat. His emphasis on partnership 
activities bolstered the Service's fisheries program and helped 
establish the Southeast Aquatic Resources Partnership to restore vital 
aquatic habitats across the region.
    Sam provided key leadership and oversight to restoration work in 
the Everglades and oversaw the extensive recovery and restoration 
efforts following Hurricanes Katrina and Rita, which devastated coastal 
wetlands, wildlife refuges, and other wildlife habitat areas along the 
Gulf of Mexico.
    Sam believed that the sustainability of the Nation's fish and 
wildlife resources require our cooperative efforts and he worked 
tirelessly toward building collaborative partnerships for conservation 
of resources for this and future generations. We will miss Sam.

                               CONCLUSION

    Thank you for the opportunity to testify on behalf of the 
President's 2011 budget request for the Department of the Interior. I 
want to reiterate my appreciation for the long-standing support of your 
subcommittee and the full Appropriations Committee. We have a 
tremendous opportunity to improve the future for our children and 
grandchildren with wise investments in clean energy, addressing climate 
impacts, treasured landscapes, our youth, and the empowerment of tribal 
nations. I look forward to working with you to implement this budget. 
This concludes my written statement. I am happy to answer any questions 
that you may have.

    Senator Feinstein. Please proceed Mr. Hayes. Glad to have 
you here.

                  SUMMARY STATEMENT OF DAVID J. HAYES

    Mr. Hayes. Thank you. Thank you, Senator. Thank you, 
members of the subcommittee.
    I will be very brief in terms of reviewing our priorities 
on the renewable energy side.
    As you know, this is a Presidential priority and, as the 
Secretary just mentioned, one of his priorities, which is to 
facilitate more attention on bringing more renewable energy 
opportunities through our public lands and our offshore 
resources.
    The approach has been to focus on key study areas and 
corridors, and as Bob Abbey, our Director of BLM likes to say, 
do it right from the start, get the right sites that work from 
an environmental perspective, put our resources into 
streamlining those projects and implementing them.
    On the solar side, we have implemented that by taking the 
programmatic environmental impact statement (EIS) that had been 
started at the end of the prior administration and bringing 
definition to it; finding 24 areas that looked most promising 
in the West, as identified by the Western Governors Association 
and by a process that had begun in California, and doing a 
deeper dive into those 24 specific areas so that we could get a 
better look as to which of those looked the most promising in 
terms of development.
    We have also identified a number of fast-track projects 
that we are working on and working through in a coordinated 
fashion with other stakeholders to determine whether they are 
good candidates for potential stimulus funding. We have a 
number of those projects moving along this year.
    Throughout, we are looking to complete thorough 
environmental analysis, take no shortcuts when it comes to the 
environment, including taking an eye towards species impacts, 
mitigation, and siting concerns. That is why, Senator 
Feinstein, we have worked with your office, for example, to 
ensure that our projects are consistent with your plans for 
Mohave Trails National Monument.
    On the wind side, as the Secretary mentioned, we have taken 
a special focus on offshore wind off the Atlantic. The 
Secretary recently met with the governors of the Eastern States 
and has set up a special process with them. Each of the 
governors is identifying a resource person to work with our 
team and develop a strategy moving ahead on the east coast. A 
tremendous opportunity there, as Senator Collins well knows, in 
part because of the magnitude of the resource and how close it 
is to those load centers.
    On transmission, this is a key issue to unlock some of the 
renewables. If we cannot get the renewables, for example, in 
Montana and much of the Intermountain West to those large load 
centers, then we will not have that development. Steve Black 
and the Secretary have been working on a project with other 
Federal agencies. We have an Memorandum of Understanding and we 
are working very closely with the Department of Energy (DOE), 
Federal Energy Regulatory Commission (FERC), the Secretary of 
Agriculture, and others to coordinate our planning. We have a 
series of fast-track projects. We are bringing the Federal 
Government together to help make the projects that make sense 
go forward.
    Let me also mention, finally, we are looking for developing 
tribal opportunities in the renewable energy area as well. 
There are 77 tribal reservations that have commercially viable 
wind resources. We want to help tribes develop those resources 
and bring them to market.

                           PREPARED STATEMENT

    Finally, geothermal and hydro are also areas of attention 
by the Department. We are looking for the broadest sweep 
possible of development on the renewable side that makes sense, 
and we appreciate the support of this subcommittee both in 
terms of providing the funds needed to make sure we do this in 
a smart and environmentally responsible way.
    Thank you, Senator.
    [The statement follows:]

                  Prepared Statement of David J. Hayes

    Madam Chairman and members of the subcommittee I am pleased to have 
the opportunity to testify on behalf of the Department's Renewable 
Energy program. This is an exciting and unprecedented direction for the 
Department and we are moving rapidly to remove the barriers to 
renewable energy development in the United States--responsibly in a 
manner that protects the environment.

                          CLEAN ENERGY FUTURE

    During the first year of his administration, President Obama has 
led the United States toward a clean energy future. A primary reason 
for delivering this change is that the United States cannot afford to 
fall behind in the energy technologies that will shape this century. We 
spend hundreds of billions of dollars each year on imported oil--our 
oil dependence poses risks to our national security.
    Renewable energy development is one of President Obama's highest 
priorities, and the United States has come far in developing renewable 
resources this past year under the President's leadership. New jobs are 
being created and many more are coming in the clean energy sector. 
America's abundant natural resources can help us rise to meet the 
challenges we face.
    The great promise of solar energy and other renewable resources has 
led us at the Department of the Interior to change how we do business. 
For the first time, environmentally responsible renewable energy 
development is a priority at this department. Until now, our deserts, 
plains, forests, and oceans have been largely unexplored for their vast 
clean energy potential.

                             OPPORTUNITIES

    The possibilities are immense, and the opportunities are great. The 
Department oversees 20 percent of the Nation's lands and 1.7 billion 
offshore acres. The Department of Energy's National Renewable Energy 
Laboratory estimates the wind potential off the East Coast of the 
United States in the Atlantic Ocean to be more than 1,000 gigawatts, 
greater than our entire national electricity demand. Turbines are 
already springing up to capture the energy of the wind that blows 
across the Great Plains. We have huge solar potential in the deserts of 
the Southwest containing an estimated 2,300 gigawatts of energy 
capacity, not far from the great cities of Los Angeles, Las Vegas, and 
Phoenix. Geothermal energy opportunities are bubbling up across the 
country. We have great opportunities to increase hydropower production 
through improvements in efficiency, by adding power generation units to 
existing facilities, and through pumped storage.
    During the past year, we offered new areas for oil and gas 
development, but instituted reforms to ensure we are offering leases in 
the right places and in the right way. Importantly, and relevant to 
today's hearing, we have also opened the new renewable energy 
frontier--not just for solar power, but also for wind, geothermal, and 
hydropower--on America's lands and waters that will help power our 
clean energy economy.
    We have opened Renewable Energy Coordination Offices in California, 
Nevada, Wyoming, and Arizona and established teams in six other 
States--Colorado, Idaho, Montana, New Mexico, Oregon/Washington, and 
Utah--that are charged with expediting the required reviews of solar, 
wind, geothermal, and biomass projects and supporting the prompt 
permitting of appropriate transmission-related projects on our public 
lands.
    We worked with the Federal Energy Regulatory Commission to develop 
and enter into a memorandum of understanding that resolved 
jurisdictional concerns that had resulted in the delay of renewable 
energy projects on the Outer Continental Shelf (OCS). We have also put 
in place long-awaited offshore renewable energy rules, creating the 
first-ever framework for offshore renewable energy development, which 
we expect to result in the development of significant offshore wind 
energy potential. We subsequently awarded four exploratory leases for 
wind energy production on the OCS offshore of New Jersey and Delaware.
    The Secretary recently announced that the Minerals Management 
Service (MMS) will establish an Atlantic renewable energy regional 
office--this will be the first Federal office specifically supporting 
renewable energy development on the OCS. Two weeks ago the Secretary 
met with the governors of 11 Atlantic Coast States that are considering 
the development of offshore wind energy projects to explore how to 
support and coordinate the development of this new industry. All agreed 
that the United States cannot be left behind and that cooperative 
planning is needed to move forward. The Secretary established a 
consortium of Federal agencies and Atlantic States to pro-actively 
determine the best sites for renewable energy development rather than 
let the applications drive the process. As the Department explores the 
potential for renewable energy in offshore areas, wind energy 
production in the Atlantic offers great promise. This collaboration 
will allow us to move smartly to identify the areas most suitable for 
development and streamline the permitting process.
    As we open this new energy frontier, new development and new 
technology deployment on public lands will help solve key challenges in 
reliability, storage, and transmission of renewable energy and 
ultimately could mean lower costs to the private market in meeting 
energy demands.
    We cannot afford to fall behind in the development of solar energy 
technologies. Over the past year, as we have worked to make the 
President's vision a reality, there has been much discussion in the 
media about the development of these technologies in other nations. We 
have heard that China is now the world leader in the manufacture of 
solar panels and wind turbines, and it has targeted the development of 
renewable and low-carbon energy as a priority. A number of European 
countries, including Spain and Germany, have developed aggressive 
policies that have led to expanded development of renewable, 
specifically solar, energy.
    The Department's vast land ownership and the breadth of our 
management responsibilities over those lands puts us in a unique and 
important role with regard to the domestic development and transmission 
of solar energy. The possibility of capturing the Sun's abundant energy 
and making it usable as a clean, nonpolluting source of power; the 
potential of American ingenuity to drive more efficient applications; 
and the promise of additional jobs for the new energy economy are 
ensuring that we at the Department are moving quickly to responsibly 
develop this tremendous energy potential on our public lands.
    Renewable energy was the subject of Secretary Salazar's first 
Secretarial Order, issued in March 2009. That order made facilitating 
the production, development, and delivery of renewable energy, 
including solar energy, on public lands and the OCS top priorities at 
the Department. The Secretary has pledged that these goals will be 
accomplished in a manner that does not ignore, but protects our 
signature landscapes, natural resources, wildlife, and cultural 
resources.

                             MOVING FORWARD

    Over the past year we have worked diligently to prioritize the 
development of renewable energy on our public lands and our offshore 
waters. Last June, Secretary Salazar and Senate Majority Leader Harry 
Reid announced the identification of 1,000 square miles, 24 tracts of 
Bureau of Land Management (BLM)-administered land, in the West as Solar 
Energy Study Areas. We are fully evaluating these areas for their 
suitability from an environmental and resource perspective and for the 
large-scale production of electricity from solar energy.
    Along with the Department of Energy, we are preparing a Solar 
Energy Development Programmatic Environmental Impact Statement, due for 
public release in late 2010. This EIS will be a landscape-scale plan 
for siting solar energy projects on our public lands in the Southwest 
that have been identified as having the best potential for utility-
scale solar energy development. The BLM has identified approximately 23 
million acres with solar energy potential, including the 24 Solar 
Energy Study Areas, which are being reviewed as part of this process to 
evaluate the environmental suitability of solar energy development 
across the West. The Solar Energy Study Areas alone have the technical 
potential to generate nearly 100,000 megawatts of solar electricity, 
enough to power millions of American homes. The public comment period 
on these solar study areas closed in September 2009, and we are 
evaluating the comments we received.
    We believe that landscape-scale planning and zoning for solar 
projects on our public lands will provide a more efficient process for 
permitting and siting of this type of development.
    To further our goals, we have announced 34 ``fast track'' renewable 
energy projects. Fast-track projects are those where the companies 
involved have made sufficient progress in the environmental review and 
permitting process and they could potentially be cleared for approval 
by December 2010, thus making them eligible for economic stimulus 
funding under the American Recovery and Reinvestment Act of 2009.
    Fourteen of the 34 fast-tracked projects are solar energy projects. 
These include several different types of concentrated solar thermal 
technologies--like solar engine, parabolic trough, and power tower--and 
photovoltaic cells, and are located in Arizona, California, and Nevada. 
All are currently undergoing detailed environmental impact reviews, and 
if ultimately approved, some 5,000-6,000 megawatts of new capacity 
could be permitted for construction by the end of this year. Moreover, 
our analysis indicates that tens of thousands of jobs could be created 
in the development of these projects alone.
    In this same vein, last fall Secretary Salazar and California 
Governor Schwarzenegger announced a memorandum of understanding between 
the State and the Department that will expedite the process of siting, 
reviewing, approving, and permitting renewable energy projects on 
Department-managed lands in California.
    We must also recognize that the development of transmission 
capacity for this new energy production is a crucial element. 
Developing solar and other renewable energy resources, which are often 
located in remote areas, will require new transmission capacity to 
bring this clean energy to the population centers where it is needed. 
The Department has already identified and designated more than 5,000 
miles of transmission corridors on the lands it manages to facilitate 
the siting and permitting of transmission lines in the right ways and 
in the right places, and we are processing more than 30 applications 
for major transmission corridor rights-of-way on the lands we manage, 
with 7 applications in Idaho, California, and Nevada that could add 
more than 1,000 miles of new transmission, on the ``fast track'' to 
potential permitting this year.
    This administration is working smartly to cut through bureaucratic 
barriers. In October 2009, the administration announced that 9 Federal 
agencies, including Interior, had signed a memorandum of understanding 
designed to expedite the siting and permitting of electric transmission 
projects on Federal lands. This agreement commits the participating 
agencies to close coordination and a number of procedures to improve 
the Federal process under existing authorities, including establishing 
a single point of contact for all required Federal authorizations.

                                 BUDGET

    The 2011 budget supports our efforts to create clean sources of 
energy using the Nation's vast domestic resources. The New Energy 
Frontier initiative invests $73.3 million in renewable energy programs, 
an increase of $14.2 million more than 2010. The initiative includes $3 
million for BLM to focus on the environmental elements of renewable 
energy projects, $3.2 million for MMS region-specific planning needs, 
$3 million for U.S. Geological Survey to analyze and document the 
effects of renewable energy on wildlife populations, $4 million for 
U.S. Fish and Wildlife Service to carry out endangered species 
consultation and other wildlife conservation efforts and provide timely 
environmental review of projects, and $1 million for Bureau of Indian 
Affairs to support renewable energy development efforts on tribal 
lands.
    The Department has a High Priority Performance Goal to increase 
approved capacity for solar, wind, and geothermal energy resources on 
Interior-managed lands, while ensuring full environmental review, by at 
least 9,000 megawatts by the end of 2011.
    The Department is redoubling efforts to evaluate existing 
applications for renewable energy projects. The BLM is currently 
processing approximately:
  --130 applications for utility-scale solar projects that involve 
        approximately 77,000 megawatts and 1.2 million acres of public 
        land;
  --22 geothermal development plans that total 761 MW;
  --249 applications for wind energy applications--207 for testing; and
  --42 applications for wind energy projects that involve 5,861 MW.

                               CONCLUSION

    Thank you for the opportunity to testify on behalf of the 
Department's Renewable Energy program and thank you for your leadership 
to advance responsible renewable energy development. This is a 
breakthrough time for the Nation's energy future. We will continue to 
work with you to ensure a balance between meeting the Nation's energy 
needs and careful stewardship of our natural and cultural resources, in 
partnership with local communities across the country. This concludes 
my written statement. I am pleased to answer any questions you may 
have.

                                 ENERGY

    Senator Feinstein. Thank you very much. Appreciate that.
    Mr. Secretary, because of the time and we have these votes, 
I am going to take my budget questions and send them to you and 
would appreciate a response in writing and go right to the 
energy questions, of which there are many, but I will do just 
one or two with my time.

                ENERGY DEVELOPMENT IN CALIFORNIA DESERTS

    More than 100 developments--energy--have been proposed for 
California's deserts, and less than 5 have even begun the 
formal National Environmental Policy Act (NEPA) permitting 
process. So here is the question. How many pending applications 
to develop the California desert stand before BLM today? How 
many have begun the formal NEPA review? And how many do you 
expect BLM to complete reviewing by the end of this year?
    Secretary Salazar. Senator Feinstein, total solar projects 
in the California desert are 52. Under formal NEPA review at 
this time, there are nine. We expect to be able to have nine of 
those approved by the end of the year.
    Senator Feinstein. Okay, good.
    How many of the solar development proposals in fast-track 
permitting would be halted by the legislation I have submitted, 
the Mohave Trails National Monument, and other provisions of 
the Desert Protection Act which I authored in the 1990s? And 
how many acres of the solar study zones overlap the proposed 
monument?
    Secretary Salazar. Senator Feinstein, let me just say we 
have been working closely with you to avoid conflicts between 
the siting of these solar facilities and the areas that need 
protection, and I think our staffs have essentially come up 
with agreement on the boundaries so we can avoid conflicts to 
the maximum extent. There may be some projects that are 
affected, but I think at the end of the day, we have come to 
understand your legislation is exactly what our approach is, 
that there are right places for there to be development, and 
there are places where we ought not to have development. I 
think in working closely with you and the stakeholders in 
southern California, we have achieved that balance under your 
legislation.
    I will say this. Overall, our goal is by the end of this 
year, 2010, December 1, because of the economic recovery 
program efforts, we want to have permitted approximately 5,000 
megawatts of renewable energy power across the western 
landscape, and much of that is in California, Nevada, and 
Arizona.
    Senator Feinstein. Thank you. My understanding--because we 
have worked together, I wanted to get you on the record--is 
that there are zero projects affected by fast-track permitting 
that would be halted, and in terms of acres of the solar study 
zones overlapping the monument, there are zero acres there as 
well.
    Secretary Salazar. David, will you confirm that fact?
    Mr. Hayes. That is correct, Senator.
    Senator Feinstein. Thank you very much.

                      SOLAR DEVELOPMENT PERMITTING

    Solar development permitting requires completion of spring 
biological surveys. As spring approaches, will BLM require all 
developers proposing development on public land to either 
complete necessary spring biological studies or give up their 
applications? The question is why or why not?
    Secretary Salazar. It is the first time, Senator Feinstein, 
that somebody raises the question with such specificity, but 
only the chairman of this subcommittee would do that in terms 
of the spring efforts that have to be done.
    We are working very hard with the applicants of these 
projects and with our sister Federal agencies to make sure the 
EIS process is followed. We are tracking each of the projects 
within the 34 listed projects for fast-track possibility, and 
we want to make sure we are not doing anything that is in 
conflict with environmental legal requirements. If the work has 
to be done in the spring, I am certain that is what is being 
done.
    Senator Feinstein. Yes. Because we believe there is a 
provision that the work has to be done, and what you are 
telling me is that will then be the requirement. Is that right?
    Secretary Salazar. If that is the requirement of the law, 
that is what we shall do.
    Senator Feinstein. Okay.

                       ENERGY DEVELOPMENT IMPACTS

    What are the criteria that the BLM will use with regard to 
endangered species impacts, viewshed impacts, water use 
impacts, cultural impacts, and other impacts on the public 
land?
    Secretary Salazar. What we have tried to do is to minimize 
those impacts, and so as David Hayes testified, our approach 
has been to be smart from the start and to be proactive in 
planning. I think in the past, before this administration, 
essentially what would happen is that applications would be 
taken in and they would be processed without a sense of where 
it was appropriate to do the development. Through our efforts, 
including the programmatic EIS with respect to solar, the one 
with respect to wind, and the other environmental planning 
efforts that we have underway, we want to essentially zone out 
those areas where we think we have the greatest promise for 
renewable energy development. When we look at the Western 
States, the programmatic EIS is covering about 23 million acres 
of land. As we go through that effort and as we burrow down 
even further, we hopefully will be able to isolate those areas 
where there is conflict so we can have more of a green light 
with respect to those areas that are appropriate for renewable 
energy development, as we have with your monument legislation.
    Senator Feinstein. Thank you very much. Your work is very 
much appreciated. Thank you.
    Senator Alexander.
    Senator Alexander. Thank you, Madam Chairman.

                            RENEWABLE ENERGY

    Mr. Secretary, you mentioned 5,000 megawatts of energy. You 
mean 5,000 megawatts of capacity or actual production?
    Secretary Salazar. It is 5,000 megawatts of permitted 
energy projects.
    Senator Alexander. Well, but if it is a solar or wind 
project, they only operate about a one-third of the time. So it 
would probably be more accurate to say if it is 5,000 megawatts 
of capacity, it would be 1,500, 1,700, or 1,800 megawatts of 
actual production, or about the equivalent of 2 nuclear 
reactors.
    Secretary Salazar. What we are talking about is the total 
that would be developed from any of these energy projects. So, 
Senator Alexander, my understanding has always been if we are 
developing a 350 megawatt solar power project in the deserts of 
the Southwest, that it will produce 350 megawatts. And so, yes, 
when there are clouds that come over, you do not have the sun, 
you are not going to have that kind of power being produced. 
What is expected--with each of these applications--is that is 
the total quantum they would produce on an annual basis.
    Senator Alexander. The point I am leading to is that we 
often talk with renewable energy about 1,000 megawatts of 
electricity for wind and solar when only a one-third of that is 
actually produced by comparison with a coal plant or a gas 
plant or a nuclear powerplant where the electricity is produced 
90 percent of the time.
    So as an example, based on my computation--and I would like 
to discuss wind in the same way that Senator Feinstein 
discussed solar--in order to produce 20 percent of our 
electricity from wind turbines, it would take 186,000 wind 
turbines, which would cover an area the size of West Virginia, 
but it would only take 100 reactors covering 100 square miles, 
which is the reason why some conservation groups are becoming 
concerned about the so-called renewable energy sprawl.
    I am happy, A, that you are focusing on treasured 
landscapes and, B, that the President--over the last 6 weeks--
has begun to take significant steps to encourage nuclear power 
because it has less impact on the landscape. The scale of it is 
so small.

                                 SITING

    In the case of the wind turbines, as Mr. Hayes mentioned, 
if we had 186,000 wind turbines, we would need about 19,000 
miles of transmission lines, whereas if we had 100 new 
reactors, we would need almost no new transmission lines 
because they could go over existing lines.
    So my questions would be, as I understand today's policy, 
we do not site new energy projects in National Parks or 
refuges. Is that correct?
    Secretary Salazar. That is correct.
    Senator Alexander. And would that also be true with new 
renewable energy projects?
    Secretary Salazar. Senator Alexander, there are renewable 
energy projects that we do have on wildlife refuges or National 
Parks. They are the kinds of small solar or even small wind 
projects that essentially produce electricity for those 
refuges. We do not have commercial scale kinds of facilities.
    But if I may take your question because I think this is the 
broader question. What are you planning to do with renewable 
energy and how does that tie into the whole energy plan of the 
administration? The President has been clear from day one that 
a comprehensive energy plan needs to have a very broad 
portfolio. Yes, he has taken a strong position with respect to 
nuclear. We will have an oil and gas component, as we have 
executed that program in the last year. But renewable energy 
and clean energy is very much a part of that energy future.
    Senator Alexander. I do not want to be rude, but I only 
have a minute left.
    Secretary Salazar. Your point on intermittency with respect 
to wind and to solar is part of what we have to do as we create 
a Smart Grid system to make sure we address that issue.

                            RENEWABLE ENERGY

    Senator Alexander. My concern is especially with the ridges 
of the Eastern United States, as you know, because we have 
talked about it because they are the only place, except for the 
coastlines, where wind works well. And in the Southeastern 
United States, it barely works at all. We have spent more than 
a century and billions of dollars of public and private money 
protecting these landscapes and these areas.
    For example, the Appalachian Trail runs 2,178 miles from 
Georgia to Maine, and were we to run a row of 50-story wind 
turbines adjacent to the trail, it would only equal the power 
produced by four nuclear reactors and we would still need the 
reactors for when the wind does not blow.
    So my question would be, are you considering in the East, 
as a part of your treasured landscape, finding ways to protect 
the Appalachian Trail specifically and its viewscapes from 
large 50-story wind turbines and leaving the production of 
carbon-free electricity to other forms of electricity that 
might not interfere with that viewscape?
    Secretary Salazar. Our own view, Senator Alexander, is 
there are appropriate places for siting the wind-energy 
potential and places that we ought to protect. I know, for 
example, that you will not see wind turbines in the viewsheds 
of the Great Smoky Mountains National Park or the ridge lines 
that I know you have protected.
    It is a very legitimate question. As we stand up renewable 
energy, whether it is wind or solar, do you want it to be 
everywhere? The answer to that is no. There are places where it 
ought not to be, and that is why smart from the start is really 
the way to go with respect to renewable energy.
    Senator Alexander. Madam Chairman, I have a letter to the 
Secretary which I will give to him and I will submit my other 
questions in writing. Thank you.
    Senator Feinstein. Thank you very much, Senator.
    Senator Tester.
    Senator Tester. Well, thank you, Madam Chair.
    And I want to thank the Secretary for being here today. It 
is always good to see you and, David Hayes and Pamela Haze, 
thank you for being here too and the rest of your team, Mr. 
Secretary. I very much appreciated the opportunity to visit.
    First of all, I need to ask how many folks do you have in 
the Department of the Interior. How many folks work there?
    Secretary Salazar. Approximately 70,000.

                             MONUMENT MEMO

    Senator Tester. Seventy thousand. There has been concern in 
Montana about a leaked memo by one of those 70,000 people on 
national monuments. Being from the West yourself, you probably 
understand those concerns. In fact, I am sure you do.
    So I guess my first question is, are there any plans to 
designate national monuments in Montana by the Department?
    Secretary Salazar. The answer to that is there are no plans 
that we have to move forward. There have been no directions 
from the White House that we move forward with the monument 
designation. It obviously is a Presidential exercise of 
authority.
    What there have been conversations about, Senator Tester, 
are the same kinds of conversations I have had with many of you 
on this subcommittee over the last year, and that is in 2010, 
it is about 102 years after President Roosevelt called the 
leaders of America together to essentially launch the 
conservation agenda, which has made America very unique. That 
is the kind of conversation and dialogue we hope to be able to 
have with people across the country, including the people of 
Montana, and we will do that with you and with State and local 
and private landowners in your State.
    Senator Tester. We will appreciate it.
    Just to follow up, so that if there is any sort of activity 
like that going on, public input on the ground would be sought 
out by your Department.
    Secretary Salazar. Absolutely.
    Senator Tester. Okay.

                         MISSOURI RIVER BREAKS

    Another issue similar. There has also been talk about 
possible land agreements along the Missouri River breaks. Some 
folks are fired up about the Department coming in and actively 
planning to pursue purchase along the Missouri River in the 
breaks region. Do you know, is this something that is real or 
is it something that is not real? Does the Department plan on 
buying land in the breaks?
    Secretary Salazar. I am not aware that there is any such 
plan, Senator Tester. The fact again here is that the best way 
these things work is exactly the kind of effort many members of 
this subcommittee were involved in, and that was the passage of 
the Public Lands Management Act of 2009. For me, that was the 
first chapter of the America great outdoors agenda. All the 
pieces that were included in that legislation, which included 
some 2 million acres of wilderness, 1,200 miles of wild and 
scenic rivers, National Park improvements, and a whole host of 
other things, it was members of this subcommittee that were 
driving that legislation based on what the local community 
wanted. That is what we intend to do.

                            ABANDONED MINES

    Senator Tester. Moving over to abandon mines, the AML was 
zeroed this year, as it was in last year's budget. There are 
many in Montana, as there are in California and throughout the 
West. In Montana, we have a law that requires Surface Mining 
Control and Reclamation Act funds to be used for cleanup. We 
cannot use it for funding education or prisons or anything like 
that. If it comes in from the Federal Government, it has to be 
used for mine cleanup.
    Could you give me any sort of perspective on how we could 
get this money reinstated and if you think it would be a wise 
thing to be reinstated if the States were required to use it 
for mine cleanup?
    Secretary Salazar. This is one of those tough choices kinds 
of questions because we are in the process of deficit reduction 
and trying to keep our budget controlled. We looked at the coal 
mine dollars that were coming back, and saw that those monies 
were supposed to be going for coal mine reclamation. We know 
what happens is it ends up shorting States like Montana and 
others who are using that money for reclamation of abandoned 
mines. It is a huge issue in this subcommittee, including 
Senator Feinstein, who have taken a huge lead role in 
addressing the problem that we have with tens of thousands of 
abandoned mines in the West.
    So at the end of the day, it is an appropriation issue. We 
did our best in the administration to try to come up with a way 
of moving forward. So let me just leave it at that.
    Senator Tester. Okay.

                     RENEWABLE ENERGY PILOT OFFICES

    David Hayes talked about renewable energy, and I appreciate 
your perspective on that. Over the last year, pilot offices 
have been opened up in Wyoming, Arizona, California, and Nevada 
for renewable energy projects to help streamline those projects 
to get through the redtape, so to speak. I think there is a 
tremendous amount of opportunity, and I think your Department 
and your leadership by Secretary Salazar has been critically 
important.
    Is there a plan to expand and have more pilot offices other 
than just those four States? And the reason I ask is because 
Montana has incredible wind opportunities, not just on the 
ridges, but also on the flats that blows well. Is there any 
opportunity to help? Because I think those pilot offices are 
critically important if we are going to get--when you talk 
about transmission, generation--and you can defer to Mr. Hayes, 
if you want, Mr. Secretary.
    Secretary Salazar. Mr. Hayes.
    Mr. Hayes. Senator, we actually have a special team 
dedicated to Western States. We are using the four offices as 
satellites, but there are teams in important Western States 
working closely.
    We are very aware of the special opportunities in your 
State and we will work with the existing offices. I am sure we 
would be delighted to open up additional offices as well, but 
we are finding these offices are working well in the States 
where they do not physically reside, as well as the ones where 
they do.
    Senator Tester. We will work you. I would just say that I 
think that we have tremendous opportunity, as the Secretary has 
pointed out, and I do not want to see that opportunity go by 
the wayside. Thank you.
    Thank you, Madam Chair.
    Senator Feinstein. Thank you.
    Senator Collins.
    Senator Collins. Thank you. Thank you, Madam Chairman.
    I think all of us are going to brag to you about the 
strength of our wind resources in our States, whether it is 
Montana or Maine. But, Mr. Secretary, Deputy Secretary Hayes, 
as you know, my State of Maine has some of the strongest 
offshore wind resources in the Nation, as well as the 
scientific and manufacturing capacity to lead the Nation in 
developing new composite materials for deep water offshore wind 
turbines. And I would say to my dear friend from Tennessee that 
an advantage of offshore wind is you do not have the aesthetic 
issues that you do with onshore wind. In addition, deep water 
offshore wind is much stronger and more persistent than some of 
the onshore wind sites. So in Maine, we are very excited about 
the possibility of leading not only the Nation but the world in 
the development of deep water offshore wind.

                           FEDERAL PERMITTING

    But to realize that vision, we need improvements in the 
Federal permitting process. The offshore wind industry, a 
coalition of offshore wind groups, just recently issued a white 
paper in which they estimate that the process that the Minerals 
Management Service (MMS) uses would take some 7\1/2\ years for 
a qualified offshore wind developer who submits an initial 
application today to secure the regulatory approvals needed to 
start construction. I am told that this is more than three 
times the period that is required to permit a typical gas 
turbine plant, and it is longer than the anticipated timeline 
to grant a permit to a new nuclear plant.
    I am very concerned about that long delay because we see 
China leaping ahead in the development of alternative energy. 
We see England taking a lead in permitting offshore wind. I do 
not want our country to lose the edge in the development of 
alternative energy, particularly offshore wind, because our 
permitting process is so slow and cumbersome.
    So I would ask both of you whether you are looking at the 
industry's suggestions for reducing that long permitting 
process. For example, it is my understanding that MMS currently 
requires two EIS, one for getting the lease for the area and a 
second to begin construction. Is the Department looking at ways 
to shorten that permitting process, Mr. Secretary?
    Secretary Salazar. Senator Collins, the answer to that is 
absolutely yes, and it is absolutely unacceptable that any 
Government process like this should take 3 to 9 years. In the 
onshore area, for example, we are fast-tracking projects where 
we will have permits by December of this year.
    Three things just briefly on Atlantic offshore wind.
    One is we are working with the Governors of the Atlantic 
States to develop a consortium to develop offshore wind all 
along the Atlantic.
    Two, there are huge opportunities with respect to 
transmission in the Atlantic that essentially would allow for 
the flowering of the offshore wind in the Atlantic, and we are 
very hopeful we can move forward with that.
    Three, I have charged a group of people, led by David Hayes 
and Steve Black, to come up with recommendations on how we can 
redo the process with respect to permitting in the offshore 
wind.
    To the extent we require legislative assistance, we will be 
back to the Congress to get that assistance, but in the 
meantime, I believe there are ways in which we can shorten that 
process by borrowing some of the same processes we are using on 
the onshore.
    Senator Collins. Thank you.
    I also hope that as MMS looks at leasing opportunities on 
the OCS for renewable resources, that you will revise the draft 
regulations which do not include the Gulf of Maine at this 
time. We obviously need to protect sensitive fishing grounds, 
but that is a very large area. And I have submitted formal 
comments on those issues, and I hope you will revise the list 
of potential areas to include the area off the coast of Maine 
for renewable energy. I hope to see that in the final version.
    Madam Chairman, I know my time has expired. I will submit 
the rest of my questions for the record.
    Mr. Secretary, let me just end by thanking you for coming 
to Acadia National Park last summer for that wonderful visit. I 
want to join Senator Feinstein in applauding your use of 
Recovery Act monies, including the most recent $4.7 million for 
the Schoodic Environmental Research Center, which you toured 
this summer. So thank you.
    Senator Feinstein. Thank you very much, Senator Collins.
    Senator Leahy.
    Senator Leahy. Thank you.
    Mr. Secretary, it is always good to see you. You are dear 
friend and it is nice to see Mr. Hayes and Ms. Haze here with 
you.
    Senator Leahy. You can note for the record those last names 
are spelled differently.
    And you are always welcome to come visit Vermont if you 
would like to.
    Secretary Salazar. I will be there.
    Senator Leahy. Thank you, and I will welcome you there.

                         FULL FUNDING FOR LWCF

    I am glad to see in the budget request that you put us on 
track to fully fund the LWCF by 2014. These are very needed 
funds for national parks and refuges. They protect endangered 
species habitat. They promote outdoor recreation. What it does 
is preserve land for our children and our grandchildren. If you 
make a mistake and preserve too much, you can always sell it 
back, but you do not get to get it if it is not preserved in 
the first place. It has been in the budget for far too long. So 
I am glad to see your efforts to put it back into full funding.

                        WHITE-NOSE BAT SYNDROME

    Let me talk to you about an issue that involves me and 
unfortunately is about to involve Tennessee and many other 
States. Our last few winters have been very serious but not for 
the obvious reasons. We have experienced a die-off in our bat 
population of historic proportions. Adrienne is putting up a 
map over there showing the spread of white-nose syndrome of 
bats. It was first discovered in our bat population in 2007. It 
has now spread infected every hibernacula in my State. 
Populations have been completely wiped out. It has caused the 
steepest decline in North American wildlife in the past century 
and has killed more than 1 million bats in the last 4 years.
    Why should you think this is important? Well, of course, 
any farmer will tell you how extremely important bats are 
because they eat crop pests, and if you lose all these bats, it 
is going to have very damaging, probably irrevocable effect on 
our agriculture. Last year it spread 450 miles in a single 
winter. It is now documented in 10 States. Biologists feel it 
soon will reach the largest colonies of endangered Indiana gray 
and Virginia big-eared bats. It was confirmed, as I mentioned, 
in a Tennessee cave just last month. These stories are 
horrendous. I have photographs which I will leave for you and 
your staff of just how horrible it is.
    A significant investment is required to work on this. We 
are going to have just a huge, probably hundreds of millions of 
dollars worth of damage in crops and in human health if we do 
not stop this. It is so interrelated.
    Where we on this issue, Mr. Secretary?
    Secretary Salazar. Senator Leahy, thank you for your 
leadership on the LWCF and on Vermont issues. I will want to 
visit one of the wildlife refuges in Vermont here this year and 
hopefully I can do it with you when you are available.
    With respect to the bat issue, it is something which has 
been raised to us. It is something we are very aware of. FWS 
and the United States Geological Survey (USGS), along with the 
NPS, are allocating in this budget $2 million to continue to do 
research and to understand what is happening with the bat 
issue. It has become a much more high-level issue in the last 
year because we understand the statistics, including the 
morbidity rates that you have been talking about. We will look 
at it and try to do as much as we can.
    Senator Leahy. I would urge accelerating whatever you are 
doing because it is basically an epidemic. People do not think 
of bats until they start realizing just how much it does in the 
balance of nature. Again, agricultural areas are just going to 
be devastated, but obviously you are going to find human 
populations are affected because of the huge increase in flying 
pests and the chance for more cases of West Nile virus.

                           LAKE MEMPHREMAGOG

    Also, I will take a moment to talk about the opportunity 
for the Department to conserve more than 400 acres of 
ecologically significant lakefront property on the border 
between Vermont and Quebec, Canada on Lake Memphremagog. 
Nevermind the spelling. We will get that to you. This land was 
bequeathed to the Federal Government at no cost--it is 400 
acres--provided only the ownership transfers prior to September 
of this year. Otherwise, it is going to be given to a secondary 
beneficiary and likely to be subdivided and so forth.
    Now, you and the Northeast Regional Director, Marvin 
Moriarty, all the FWS staff have been working hard to do this. 
But the clock is ticking. We have 6 months. I mean, it is free 
land, one of the most beautiful areas between the United States 
and Canada from a very generous donor. Will you kindly nudge 
everybody to keep this moving? My office will help anyway we 
can because once that deadline comes, this is gone.
    Secretary Salazar. Senator Leahy, we are days away from 
completing the process and days away from the decision. We will 
get it done.
    Senator Leahy. Thank you very much.
    Madam Chair, thank you very much. Did we pass out this map?
    Senator Feinstein. It went down this way.
    Senator Leahy. Oh, good.
    Senator Feinstein. I know Senator Reed is very interested 
in bats and he would like to see that.
    Senator Leahy. Listen, we can joke about it.
    Senator Feinstein. I am not joking.
    Senator Leahy. Nor am I, this thing is devastating. It is 
going to destroy agriculture in some part of this country--I 
mean, we are going to see our apple orchards disappear. We are 
going to see a lot of our grain crops disappear. It is just 
unbelievable how white nose syndrome has spread so rapidly.
    Senator Feinstein. Thank you very much for your advocacy, 
Senator.
    Next is Senator Cochran.
    Senator Cochran. There is no relationship between the bat 
out of hell and your role in Batman. Was there?
    Senator Leahy. No. I was a good guy.
    Senator Cochran. Mr. Secretary, thank you very much for 
your cooperation and attention to the interests of the members 
of the subcommittee. We especially appreciate your visit to 
Mississippi. I remember going with you to the Vicksburg 
National Military Park and visiting the old courthouse there, 
historic assets, resources that make our State, and I am sure 
every State in the Union is proud of heritage and history, to 
keep these sites accessible to visitors so they may continue to 
enjoy the natural beauty, as well as historical points of 
interest around our great country.

                         NATCHEZ TRACE PARKWAY

    The Natchez Trace Parkway is a very important artery for 
visitors coming to our State. They go from the northeast corner 
down to the Natchez area on the Mississippi River. We hope we 
can continue to support that, the maintenance of it, and make 
sure it is a place that is attractive to the visiting public. 
Your assistance in that regard continues to be appreciated.

                              SAM HAMILTON

    I was glad you mentioned Sam Hamilton. We regret his 
passing, our wonderful friend and a great contributor to our 
appreciation of natural resources and protecting our ecosystems 
in our State and throughout the country. His sudden death was a 
great shock to us all. We are going to suggest that the North 
Mississippi National Wildlife Refuge complex be named in his 
honor. We hope that you can support that as well.

                          COASTAL RESTORATION

    Hurricane Katrina devastated the Gulf Coast, and we have 
been working and I know you have too in coastal restoration. 
Thank you for your leadership, and we hope that this budget 
request will contain support for that important work to 
replenish barrier islands to keep a good working relationship 
going between the NPS and the Corps of Engineers, which is 
essential to expeditiously completing that important project.
    So I look forward to your testimony. Thank you very much 
for being here to help us understand your request.
    Secretary Salazar. Thank you very much, Senator Cochran.
    I think Mississippi does demonstrate how this Department 
really is the Department of the Americas. When we think about 
the great wildlife values and national park facilities that we 
have in your State, it is something that makes us very proud.
    We thank you for honoring Sam Hamilton both in life and now 
and look forward to working with you in terms of how we honor a 
man who understood that the matter of conservation was not a 
Republican or a Democrat or any other kind of affiliation. It 
was a matter of doing it right and working with local 
communities in the creation of Landscape Conservation 
Cooperatives. Much of what you see in this budget with respect 
to Landscape Conservation Cooperatives and climate change 
essentially was the brain child of Sam Hamilton.
    Thank you very much, Senator Cochran.
    Senator Feinstein. Thank you very much, Senator Cochran.
    Senator Reed.
    Senator Reed. Thank you very much, Madam Chairman.
    And thank you, Mr. Secretary, for your leadership in the 
Department.

                     ATLANTIC WIND ENERGY POTENTIAL

    I want to associate myself with the remarks of Senator 
Collins about the potential for wind in the Atlantic. We are in 
Rhode Island at the stage of trying to get some projects off 
the ground, and you have been very, very helpful. You recently 
convened all the governors to talk about how the States can 
cooperate with your agency.
    We, in Rhode Island, have been working with a joint 
Federal/State task force to do a request for interest (RFI) for 
a Federal lease, and we have had conflicting advice from MMS. 
And we have been forced to revise this document twice. At the 
same time, the State of Massachusetts has been promulgating 
their request without coordination with Rhode Island.
    I know there has been some, because of your work, better 
collaboration between the States, but it does raise several 
questions. One is how is MMS working to minimize these 
conflicts between the States of sharing information and also of 
insisting that there be thorough analysis of the topography and 
the subsurface elements.
    Secretary Salazar. Senator Reed, you raise a very important 
question, and I agree with the inference that we could, in 
fact, do much better. I would just say that it is important to 
note the historical context of this, that before I became 
Secretary of the Interior, there were no rules and really no 
program for offshore wind. David Hayes led the effort with Jon 
Wellinghoff from FERC to address the bureaucratic logjam that 
essentially allowed us to move forward with the framework. The 
framework is still a work in progress. It is not perfect, and 
that is why we have charged MMS-- and I am personally involved 
in this--to work with the States to come up with a template on 
how we are going to move forward.
    In the context of all the things I work on, standing up the 
renewable offshore wind capacity off the Atlantic is close to 
the very top of the priorities, and we will not leave any stone 
unturned to make sure that we do it better. We already have the 
working group with the States to try to figure out how we can 
minimize those conflicts.
    Senator Reed. I thank you for that, Mr. Secretary. One of 
the aspects of Rhode Island that we feel gives us a good 
foundation to begin this process is for the last several years, 
going back 2 or more years, we have conducted a special area 
management plan study. We have basically looked very closely at 
the subsurface geological characteristics. We have integrated 
with fishing grounds, et cetera. I think we might be as far 
ahead as anyone.
    I think that factor is not being considered enough by MMS 
in terms of what they are doing. For example, I do not think 
our sister States, Massachusetts and others, are that far ahead 
yet. They still are sort of submitting their RFIs and going 
ahead. So I think, again, in this process of trying to 
rationalize what is being done, credit for recognition of the 
scientific basis of these proposals should be much greater. And 
I think you agree.
    Secretary Salazar. I agree.
    Senator Reed. Thank you.

                       ATLANTIC RENEWABLE OFFICE

    Let me also say you have indicated that you are going to 
create an Atlantic office for renewable energy. Do you have any 
idea where that is going to be?
    Secretary Salazar. It is going to be in one of the Atlantic 
States.
    Senator Reed. So it is from Caribou, Maine to Key West, 
Florida. We have narrowed it down?
    Secretary Salazar. Yes. Actually, Senator Reed, there are a 
number of criteria that we are looking at. The bottom line is 
the principle that will drive us in the decision to locate this 
office will be how we make it the most effective office, and 
that means having an office that can essentially communicate 
with all of the different stakeholders along the Atlantic 
States. We are close to that decision. Stay tuned for lots of 
announcements we will be making with respect to offshore wind 
in the months ahead.
    Senator Reed. Yes. Given the interest, obviously, of not 
just Senator Collins, but I think many members of the 
subcommittee, I think we would all like a fair opportunity to 
advance our recommendations. And I know you will make the 
decision and you will make it based upon what you believe is 
the best and most effective means to carry out your policy. But 
there is a great deal of interest not in my home State alone 
but up and down the coast in terms of getting this. I think 
part of it is because of what we have talked about previously, 
this sense that it is difficult to coordinate with MMS, that it 
is a voice at the end of a phone that sometimes is not the same 
voice, all these things.
    So the location of this facility will signal but also that 
I presume will be the place where we will all have to go and 
coordinate. It will be sort of the direct service. Is that your 
concept, sort of one-stop shopping?
    Secretary Salazar. It is and it is to provide a focal point 
for the coordination of these issues on the Atlantic offshore 
wind, many of which you have raised as problems that we 
currently are facing. We are moving forward with the hiring. We 
really should not be moving forward with the hiring until you 
know where the location of the office is going to be.
    Senator Reed. Well, I am simply defending Senator Collins' 
rights. That is all I am doing.
    Secretary Salazar. We are on the case.
    Senator Reed. Thank you.
    Senator Feinstein. Thank you, Senator Reed.
    Senator Bennett.
    Senator Bennett. Thank you very much, Madam Chairman.
    Mr. Secretary, last week we had a discussion about the 
monuments and the Antiquities Act, and I am delighted to have 
Senator Tester join with me. And I appreciate your answer to 
him being the same one that you gave to me.

                              OIL AND GAS

    I want to turn now to another issue that I am sure will not 
come as a surprise, and that is oil and gas. The primary issues 
that we are faced with right now in the country are jobs and 
the deficit. Those are the two things I hear the most about 
when I am out campaigning. Where are the jobs? What are you 
doing to get us those jobs? And gee, we hate all this 
Government spending. We hate the size of the deficit.
    I think the two are interrelated with respect to oil and 
gas. Maybe some do not understand it, but the revenues that 
come from oil and natural gas, next to the income tax, are the 
largest source of revenue in the Federal Government. The 
program pays for itself many times over. The study I have seen 
says that the onshore oil and gas program generates $46 for 
every $1 spent on the program and $123 when you factor in 
income and other taxes, income paid by people who are working 
in the industry by the companies, et cetera. It is pretty tough 
to come up with any example of a Federal program that can 
produce $146 return on every $1 spent. And of course, there are 
jobs.

                 APPLICATIONS FOR PERMITS TO DRILL FEES

    Now, your budget proposes a significant increase in the 
application for a permit to drill fee, a new nonproducing lease 
fee, a new inspection fee, a rulemaking for onshore royalty 
rate increase, and new taxes on the oil and gas industry.
    Now, I am a businessman and when we have a problem with a 
product, you do not raise prices on it in an effort to have it 
move more. And we have something here that we want to continue, 
and yet with all of these increased fees and increased prices, 
I think there is going to be an impact both on the jobs and on 
the amount of money that the Federal Government receives 
because we have already seen in my home State with the reaction 
to what has been done in the areas that we have talked to Mr. 
Hayes about companies saying, well, we are just not going to 
fool with dealing with the Federal Government. We are going to 
take our rigs and we are going to go someplace else, and they 
move from Utah to Oklahoma or Texas or some other places.
    And now you are saying, well, if you do stay on Federal 
lands, we are going to charge you significantly more by virtue 
of this. And we have a tremendous unemployment problem and jobs 
in Uintah County and Duchesne County as this industry dries up.
    My question is, has there been any analysis, economic, 
statistical analysis, of what will happen to revenue reductions 
both in State and Federal treasuries, because the State gets a 
lot of revenue from this, as a result of this increase in fees?
    Secretary Salazar. I appreciate the questions you asked 
last week on monuments and the question you asked today on oil 
and gas. Our job, as I see it as the Secretary of the Interior, 
is to make sure taxpayers are getting their fair return. When 
you look at the statistics relative to the number of acreage 
that has been leased on the onshore, as well as on the 
offshore, in the last year, it is apace with what was done in 
the previous 8 years.
    When you look at the fees we are collecting, those fees I 
believe are fees that are affordable by the oil and gas 
industry. The economic downturn we have seen with respect to 
oil and gas has been driven simply because of the lower cost of 
natural gas, not because of the fees. The $6,500 permit 
application, APD fee, that we charge that was in last year's 
budget and it is in this year's budget again. It is a tough 
budget and we are trying to make tough choices.
    As we look at these things, it is important we are doing it 
from a rational, economic point of view. I had the BLM and 
economists in the Department of the Interior look at ways in 
which we are making sure we are getting a fair return for the 
taxpayers. For example, the 12.5 percent royalty that is paid 
onshore by an oil and gas producer has been the same royalty 
that has been in place since 1920 when the 1920 Mineral Leasing 
Act was passed. It was then called the King's share. It still 
could be called the King's share today. You compare that to 
what is being paid to the States, whether it is Texas, 
somewhere in the range of 20 percent, or South Dakota, there is 
room for economic analysis to make sure we are getting it right 
here, and that is what we are trying to do.
    Senator Bennett. Let me just quickly, Madam Chairman, take 
the Texas example. If you make an application in Texas to drill 
on State land, the application is approved in about 19 or 20 
days. People who have been trying to get leases done in Utah 
have filed resource management plans that have taken 7 years to 
come to fruition, going back to what Senator Collins had to say 
about her circumstances, and then as we know, some of those 
after 7 years have been turned down by you when you became and 
now you have put in additional delays.
    I think they would be happy to pay a 20 percent royalty if 
they could get on the ground within 19 days. It is the 
combination of the increased fees for which they get no 
services. If you get something for what you pay, they are 
willing to pay. But I do not think it is really a fair 
comparison between what is happening in the States that use 
their money to facilitate this, create the jobs, and get the 
revenue, then Federal Government that, at least in my State 
keeps delaying, delaying, and delaying, and now increases the 
cost.
    I would appreciate it if you would do a careful analysis of 
the impact of this on jobs, as well as the overall impact on 
revenue because it is one thing to say we are increasing the 
percentage, but a higher percentage of nothing produces a whole 
lot less revenue than a lower percentage of something that is 
moving forward. And I have the fear that this is what is 
happening, at least in my State with respect to oil and gas.
    Thank you, Madam Chairman.
    Secretary Salazar. If I may, Madam Chairman, just a quick 
response, Senator Bennett. I very much look forward to working 
with you and others on the ground to get it right. I think what 
we have seen is that in the prior administration, the last 
year, 49 percent of the oil and gas leases were protested, and 
so when we have 7-year delays it is because of litigation that 
ensues because it is not being done right.
    Senator Bennett. The 7 years to produce the RMP had nothing 
to do with the environmental suits.
    Secretary Salazar. Going back to the principle that 
Director Abbey and I are driving here is we want to get it 
smart from the start, and I think by knowing where oil and gas 
production is going to take place is something that we ought to 
be able to do to provide more certainty to the oil and gas 
producers. That is part of what we are trying to do with the 
rules and the outreach that Director Abbey and Assistant 
Secretary Lewis are doing, including going back to Utah and 
having additional conversations with organizations like IPAMS 
and others about how we can get it right.
    Senator Bennett. Thank you.
    Senator Feinstein. Thank you very much, Senator.
    Senator Nelson.
    Senator Nelson. Thank you, Madam Chair.
    First of all, Secretary Salazar, it is good to see you. I 
appreciate your being here today. It is always good to have you 
back on the Hill among your friends, and we appreciate your 
good work. Working with you in the Senate was a pleasure, and 
it is becoming a pleasure working with you in your new role.

                          RED WILLOW CREEK DAM

    I want to take just a moment to note a Bureau of 
Reclamation (BOR) issue. I know we do not fund the bureau in 
this subcommittee, but it is an issue I want to mention briefly 
while I have the chance because just yesterday I sent a letter 
to the BOR Commissioner, Michael Connor, regarding in my home 
area the Red Willow County dam. This is located on Red Willow 
Creek, approximately 11 miles northwest of my hometown of 
McCook, Nebraska.
    Unfortunately, during an inspection last fall, multiple 
cracks were discovered throughout the 126-foot earth fill 
embankment which impounds up to 85,000 acre-feet of water to 
form Hugh Butler Lake. And in response, the bureau has had to 
lower the lake to levels last seen during the drought of 2002 
in order to relieve stress on the dam. This means that up to 
5,000 acres of cropland in the Frenchman Cambridge Irrigation 
District will have no available irrigation water in either 2010 
or 2011, and it will inevitably lead to financial difficulties 
for area farmers and communities.
    I know that you know as well as anyone the problems water 
shortages cause Western State growers. I know the bureau is 
doing what it can and what it has to. And I wanted to take the 
opportunity and say I want to be a partner should there be a 
role for Congress to play to help the bureau execute a plan to 
repair this dam as quickly as possible and mitigate the need 
for such low water levels behind the dam and to extend an offer 
to be of any assistance that I possibly can in the process of 
fixing this. I know you might have some degree of influence 
there, and to the extent that you find that I can, I would 
appreciate being let know. I am sure Mr. Connor will, but I 
would like to have your attention to it as well.
    Secretary Salazar. Thank you very much, Senator Nelson. Let 
me say I have not been to McCook, but I enjoyed our trip 
together to Scottsbluff earlier this year and seeing some of 
our wildlife refuges and USGS facilities in that area.
    Senator Nelson. Well, if you liked Scottsbluff, you will 
love McCook.
    Secretary Salazar. We will come by.
    Let me just say we are aware of the issue. We are 
evaluating it. These are cracks in the dam, so we have public 
safety issues that need to be addressed, and our hope is that 
we will have the repairs underway with the right funding by 
2011. There may be ways in which we can expedite that, and I 
will ask the Deputy Secretary, David Hayes he and Mike Connor 
are outstanding working on these issues to see whether there is 
a way in which maybe it could be expedited because I recognize 
that if we are looking at repairs in the year 2011, we 
basically have gone by two irrigation seasons. I know how 
important that is.
    Senator Nelson. We lose two seasons.
    Secretary Salazar. Let us see whether there is a way of 
expediting it, but right now it is on schedule for studies and 
then repairs for 2011.
    Senator Nelson. Well, thank you. I know you will. I 
appreciate it.
    And as you said, last fall we had the opportunity to be in 
Scottsbluff, you and Secretary Vilsack, to meet with a number 
of our farmers, ranchers, community leaders, and researchers 
from the University of Nebraska as part of the administration's 
tour. I truly appreciated that opportunity that we all had to 
discuss the vital issue of how communities, States, and the 
Federal Government can work together to help strengthen rural 
America.

             UNIVERSITY OF NEBRASKA AND USGS COLLABORATION

    Part of that visit, the university had engaged with USGS in 
a workshop on water resources and challenges in the area, 
especially in the Sandhills in the northern, central, and 
western parts of Nebraska, which are so important to our State 
and the West. And I hope that the collaboration between the 
USGS and the university is progressing. If you would, perhaps 
you would not be able today to do it, but if you could, please, 
and if not, maybe have somebody get back to us on what are the 
next steps to make certain that that relationship, that 
partnership continues in the fine tradition that it has 
started.
    Secretary Salazar. We are going fast forward with that, and 
I think that is another great example of how you can take part 
of an ecosystem, as you have done there in Nebraska through the 
University of Nebraska and USGS, and you look at the water 
issues. You look at the land issues and you respect private 
property rights. You respect water rights. At the same time, 
you move forward with a coherent plan, as the University of 
Nebraska and USGS are doing on the Platte. And so we are full 
partners and we are fully engaged and we want to make it an 
example for what happens all around the country.
    Senator Nelson. Thank you.
    Madam Chairman, I would have been here earlier except that 
I was on the floor, but you pointed out that I arrived just in 
time for my cameo appearance. I appreciate very much the 
opportunity, and thank you, Mr. Secretary.
    Senator Feinstein. Thank you very much, Senator Nelson.
    We have some time yet, and I have two questions I would 
like to ask, but I also want you to know that Senator Alexander 
suggested that we have a second hearing really just devoted to 
energy. So we will be doing that, obviously, that which is in 
our jurisdiction. So I want to alert you that we will be doing 
that.

                       PERMITTING ON PRIVATE LAND

    But I want to bring to your attention an issue and that is 
permitting on private land. As you will recall, the conference 
report of last year's bill had a statement to the effect that 
``the conferees believe that renewable energy developers should 
have less difficulty permitting their projects on disturbed 
private lands than on pristine public lands in order to 
facilitate greater species protection and stewardship of public 
resources and public lands.'' That is a direct quote from the 
conference report.
    Now, this problem has not gone away. FWS has stated that 
permitting a project on private land will take up to 9 years. 
In contrast, you are pushing, as I understand it, the 
permitting of public land projects down to 18 months, which is 
great. It is a more reasonable time table.
    Now, we are told by developers that this has gotten so 
severe that developers are searching for ways to avoid FWS. 
Developers tell my staff they scour a private land development 
site for an isolated desert wetland just so they can have the 
Army Corps of Engineers be their lead Federal agency. When 
developers hope to find a wetland on their development site, I 
think that is a sign that the permitting process is broken.
    Now, my staff has received an update from FWS. Bottom line, 
the service is making some progress, but really they are not 
focused on private lands. So I have a series of questions in 
this area.
    To bring logic to permitting private land projects, the 
Mohave needs a desert conservation plan, and California and FWS 
are drafting such a plan. The goal is to get it done by 2012, 
but few seem to believe that is possible. In fact, the plan is 
already months behind schedule.
    This subcommittee recommended the service consider creating 
a cooperative agreement with California under section 6 of the 
Endangered Species Act (ESA) to speed this process up. Can you 
assure me that this option will be given serious consideration 
immediately?
    Secretary Salazar. The answer is yes, and I will have David 
amplify on the response.
    Senator Feinstein. Excellent.
    Mr. Hayes. Senator, I wanted to thank you and your staff 
for your leadership on this very important point in this very 
important area. I think, with your help, we are prioritizing 
the importance of bringing habitat conservation planning on the 
ground in California so that private projects can move forward. 
The key is to have a global approach to deal with the desert 
tortoise habitat issues and that, of course, is what both 
section 6 and section 10 of the ESA are designed to do.
    I recall being with you, Senator, 8 years ago at Fort Irwin 
looking at desert tortoises to help the Army expand their 
facility there. We know that with smart conservation approaches 
we can solve these problems and we are committed to do it.
    Let me also say the legislation you have introduced has 
some very good features in this regard, and we look forward to 
working with you on that.
    Senator Feinstein. Good. Thank you very much.

                           SOLAR DEVELOPMENT

    I understand that BLM plans to complete a full NEPA EIS on 
each zone, but that solar development proposed in the zones 
will also go through a project-specific full environmental 
impact report. So a project in the zones would have to complete 
two full EISs while projects in less ideal locations outside 
the zones would need only one EIS.
    Now, we believe you could prevent this by assuring that the 
first EIS is sufficient to meet the project level permitting 
needs. Is this possible and can you make sure that the first 
EIS is sufficient so that a second EIS is not necessary?
    Secretary Salazar. The answer is we will expedite the 
process. Actually it is the first EIS that will help us make 
sure that it is expedited. David, the Deputy Secretary, will 
amplify.
    Senator Feinstein. Is that a yes?
    Secretary Salazar. Yes.
    Mr. Hayes. Senator, we did a midcourse correction on the 
programmatic EIS that had begun before we came to office. It 
was at such a high level that we thought it probably would not 
help at all in terms of individual projects. What we have done 
is now focused on these 24 areas. We are bringing more specific 
levels of review there so that individual projects can tier off 
of that programmatic EIS. We are hopeful the NEPA that will be 
needed for individual projects will be far less, often 
environmental assessments, because of the work that has been 
done on those specific areas. That is the whole intent, is to 
facilitate individual projects not having to go through the 
entire process again.
    Senator Feinstein. Well, I think this is really critical 
because it drives people crazy and it is totally unnecessary 
and it is very costly. So I really appreciate that answer, and 
I thank you for making that change. I think that should be 
welcome news to everybody.
    Secretary Salazar. Senator, if I may just add a 
supplemental footnote to that. Our efforts with respect to 
renewables have been to try to streamline the processes. This 
is a new world we are operating in, and I am the first to admit 
we may not have it perfect but we are trying to avoid the kind 
of duplication or waste of investment on the part of the 
development of renewable energy. We are open to improving our 
processes, but we are committed to making sure that we stand up 
renewable energy on the onshore and the offshore.

                             SOLAR STUDIES

    Senator Feinstein. Just one quick other thing. You have 
proposed four solar studies in California covering more than 
330,000 acres, but none of the four areas are in the West 
Mohave Desert, which many biologists point to as an area of 
less pristine desert than the East Mohave. So my question is, 
would you consider establishing more solar study areas in the 
West Mohave?
    Secretary Salazar. David, go ahead.
    Mr. Hayes. The issue there, Senator, is that there is not 
as much public land on the west side of the Mohave.
    Senator Feinstein. Which is what we want to do. I want to 
protect land--see, I view the fact that the reason the Federal 
Government has land is to conserve it----
    Mr. Hayes. Right.
    Senator Feinstein [continuing]. And to protect it, and that 
there is a reason why that land is public land. And now, there 
is a lot--and we have all seen it--of private land that is 
eminently suitable for this.
    Mr. Hayes. Let me just say this fits right into your 
previous question, Senator, which is will we help private 
developers on private land develop their projects. The answer 
is yes. In the West Mohave, there is much more private land 
ownership. Just what we were talking about before, working 
through section 6 and section 10 of the ESA, we will help 
facilitate those projects as well. This initiative the 
Secretary is talking about is we are interested in standing up 
renewable energy wherever it makes sense, including on private 
lands, most certainly.
    Senator Feinstein. Good. I appreciate that and I thank you 
both very much.
    Senator Cochran. No comments?
    Senator Cochran. I have nothing further, Madam Chairman.
    Senator Feinstein. All right.
    Senator Nelson.
    Senator Nelson. Nothing, thank you.
    Senator Feinstein. Well, we are in time for the vote, and 
let me thank both of you. For me, it really is very fine what 
you are doing. You are listening. You are taking in arguments. 
You are evaluating them. And I think we are beginning to make 
progress in this arena. It is unprecedented. When I look back 
just a year at the pile-up of projects and people just went in 
and took land or wanted to submit for land in huge projects, 
projects the size of which had never been done anywhere in the 
world, and now we are down to things that I think are practical 
and doable on land which is possible for this kind of 
development. So I really want to thank you both for your 
leadership, and we will continue.

                     ADDITIONAL COMMITTEE QUESTIONS

    We will submit questions in writing. The record will remain 
open for 2 days to do that. So thank you very, very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Dianne Feinstein

                       RENEWABLE ENERGY PROJECTS

    Question. We have worked together for more than a year to make sure 
we move forward with renewable energy development in a way that 
protects the most pristine parts of the California desert. As part of 
that effort, I have proposed the Mojave Trails National Monument, and I 
have endorsed your effort to establish solar study zones and to ``fast 
track'' permitting of proposed development in locations where projects 
avoid opposition and delay. How many of the solar development proposals 
in ``fast track permitting'' would be halted by the proposed Mojave 
Trails National Monument or other provisions in California Desert 
Protection Act of 2010, and how many acres of the solar study zones 
overlap the proposed Monument?
    Answer. There are no ``fast track'' projects or solar study zones 
(Solar Energy Study Areas (SESAs)) within the boundary of the proposed 
Mojave Trails National Monument.
    Question. In the California Desert Protection Act of 2010, I 
propose that the Bureau of Land Management (BLM) require each developer 
to complete (1) necessary biological field studies; (2) cultural field 
studies; (3) plans for water; and (4) plans to connect to the grid. I 
proposed that BLM should reject applications of developers who are not 
making progress in these areas and focus resources on the proposals 
that are making serious progress, so that the best sites cannot be held 
as assets by speculative companies. As we discussed at the hearing, 
Solar development permitting requires completion of spring biological 
surveys. Will BLM require all developers proposing solar development of 
public land to either complete necessary biological studies this spring 
or give up their applications? Why or why not?
    Answer. The BLM's existing regulations provide the authority to 
deny right-of-way applications when the proposed use is inconsistent 
with the BLM's existing Resource Management Plan, or when the BLM 
determines the application is deficient. The BLM is requiring that 
applicants submit a plan of development that includes the following 
information necessary to perfect their solar energy right-of-way 
applications: necessary biological field studies; cultural field 
studies; plans for water use and conservation; plans to connect to the 
transmission grid; and other proposed design and development 
information. If applicants fail to meet these requirements, their 
applications will be rejected.
    Question. You have proposed SESAs across the West, including four 
in California covering more than 330,000 acres. I have a few questions 
about these areas.
    On much of the land in California's SESAs, developers had already 
submitted right of way applications to develop solar projects on the 
land before BLM designated them as study areas. Do you intend to 
prioritize review of these pending applications ahead of proposed solar 
development on BLM lands outside the study areas? How do you intend to 
offer lands within these SESAs for development? Do you intend to offer 
lands within these areas through a competitive process?
    Answer. Of the 330,000 acres of BLM-administered public land within 
California's SESAs, approximately 154,000 acres are under application 
for wind or solar development, of which nearly 87,000 acres are being 
analyzed as BLM ``fast track'' projects. SESAs were identified as areas 
expected to have fewer resource conflicts.
    Question. If you subject these lands to competitive bidding, how do 
you intend to avoid a bidding situation that increases the cost of 
renewable energy for California's consumers?
    Answer. As stated previously, no decisions have been made on how to 
offer lands for solar energy development within SESAs, including 
whether to offer the lands through a competitive process. The 
Department's goal is to develop a process that is environmentally 
sound, scientifically grounded, and cost effective.
    Question. I understand that BLM plans to complete a full National 
Environmental Policy Act (NEPA) Environmental Impact Statement (EIS) on 
each SESA, and I greatly appreciate your assurance during the hearing 
that you will do everything possible to prevent projects proposed 
within the areas from having to go through a second, project-specific 
full EIS. However, I do not understand how your department intends to 
execute this plan without completing comprehensive spring biological 
studies as part of the first, programmatic EIS (PEIS). Please explain 
what steps you are taking to assure that the first EIS will be 
comprehensive enough to assure that projects will be able to ``tier'' 
off it, completing project level Environmental Assessments (EAs) that 
require less review and less delay.
    Answer. The Department is committed to conducting a robust solar 
PEIS. We are taking the following steps to reduce the need for 
subsequent consultation and clearances for future projects: conducting 
Endangered Species Act (ESA) listed species effects analysis for each 
of the SESAs; identifying potential conservation measures at both the 
PEIS and SESA levels; and utilizing desert tortoise surveys and 
population estimates provided by the U.S. Fish and Wildlife Service 
(FWS). Site-specific work, such as biological surveys, may still be 
necessary prior to development within a solar energy zone to ensure 
that only the most current data are used for decisionmaking. Our plan 
is to allow the project-level environmental analysis to tier to the 
PEIS to the greatest extent possible.
    Question. During the hearing, you stated that BLM does not control 
enough land in the West Mojave to justify a SESA. However, according to 
BLM's West Mojave Plan released in 2006, the ``West Mojave Desert area 
encompassing 9.3 million acres in Inyo, Kern, Los Angeles, and San 
Bernardino counties: 3.3 million acres of public lands administered by 
BLM, 3 million acres of private lands, 102,000 acres administered by 
the State of California, and the balance of military lands administered 
by the Department of Defense.'' It surprises me that the Department of 
the Interior does not view any of the 3.3 million BLM acres as 
appropriate for analysis as a solar energy study area, even though this 
area of the desert is generally considered less pristine than the East 
Mojave, and Federal lands in the West Mojave are still in a checker 
board pattern with private land. Will you ask BLM to analyze the 3.3 
million acres it controls in the West Mojave in order to determine 
whether a SESA would be appropriate in this area and report back to the 
subcommittee within a reasonable time period?
    Answer. Recently, the BLM began actively working with California 
Department of Fish and Game and other wildlife groups to identify 
suitable SESAs in the West Mojave Desert that would have minimal impact 
on the mojave ground squirrel. Of the 3.3 million acres of BLM land in 
the West Mojave, approximately 70 percent is committed to special uses 
including wilderness, wilderness study areas, desert wildlife 
management areas, the Marines' Twenty Nine Palms Expansion, off-highway 
vehicle open areas, habitat management areas, and other conservation 
areas. The remaining 30 percent is mostly noncontiguous BLM lands mixed 
with private, State, and other ownerships which is why close 
coordination and collaboration with others in the area is critical.
    Question. BLM has ``fast tracked'' permitting of 10 solar projects 
in California in order to help these projects qualify for the 
``Treasury Grants program,'' establishing in section 1603 of the 
American Recovery and Reinvestment Act, that expires at the end of 
2010. Is it your understanding that many solar projects in California 
will not be built unless they are able to claim the treasury grants 
program? Do you agree that extending this program, as I have proposed 
in the Renewable Energy Incentive Act, would allow far more solar 
projects to be financially viable?
    Answer. The Department defers to the Department of the Treasury 
regarding these incentives.
    Question. BLM is currently permitting solar and wind projects on 
BLM land under the Federal Land Policy and Management Act (FLPMA). 
Under the statute, what criteria must BLM use to determine whether or 
not to grant a right of way use to a private entity? On what 
substantive grounds can BLM turn down an application if it has been 
properly submitted? What standard of review determines whether or not 
an applicant will be granted a right of way use authorization?
    Answer. The BLM processes wind and solar right-of-way applications 
consistent with the requirements of title V of FLPMA and its 
implementing regulations (43 CFR 2800). Under FLPMA, before the BLM 
approves any right-of-way, it must find the use to be consistent with 
the Resource Management Plan for the area, and must comply with the 
NEPA and other Federal laws. In addition, before processing a right-of-
way application, the BLM requires the applicant to provide cost 
recovery funds, submit a detailed plan of development sufficient to 
initiate NEPA review and analysis, and provide timely responses to any 
requests for additional information. Failure to comply with any of 
these requirements could be grounds for the BLM to reject an 
application. Also, during the NEPA review, environmental consequences 
may be identified of such significance that the application can be 
denied because it is not in the public interest and would cause 
unnecessary or undue degradation of the lands.
    Question. BLM has established very important Renewable Energy 
Permitting Coordination Offices (RECO). Senator Tester and I introduced 
legislation proposing these offices in 2008, and I have supported them 
ever since. While these offices are improving the consistency of 
permitting within each State, there is still no single solar permitting 
guidance to assure that projects in all States are evaluated under the 
same set of criteria. Do you believe BLM should develop a guidance or 
manual that would set clear rules for permitting renewable energy 
nationwide?
    Answer. The BLM issued a solar energy policy in April 2007 to 
provide guidance in the processing of solar energy right-of-way 
applications. The BLM is currently preparing additional guidance 
regarding solar energy rent, bonding, due diligence, best management 
practices, and length or term of solar energy right-of-way 
authorizations. Solar energy applications and authorizations also must 
comply with the requirements of the BLM right-of-way regulations and 
existing right-of-way policy guidance.

                       PERMITTING ON PRIVATE LAND

    Question. FWS has completed a draft section 4(d) rule, which would 
standardize permitting requirements for desert tortoise. Will you 
pledge to complete this rule within 1 year?
    Answer. FWS is in the process of drafting a proposed 4(d) rule 
under the ESA for desert tortoise that would streamline ESA compliance 
for certain renewable energy projects on non-Federal lands in the 
desert region of southern California. The FWS plans to publish the 
proposed rule in February 2011 for public comment. The rule is subject 
to NEPA, which requires us to write either an Environmental Assessment 
or an EIS for the final rule. Public input is required under NEPA, and 
FWS estimates that the final rule and NEPA decision documents could, 
depending on concerns raised by the public, be completed by December 
2012.
    Question. FWS believes they cannot complete a template ``habitat 
conservation plan'' that solar developers could use to speed up private 
lands permitting until it completes the 4(d) rule. Please explain why a 
simple template cannot be provided immediately.
    Answer. The conservation standards that will be developed as part 
of the 4(d) rule discussed above would be used for a template habitat 
conservation plan for solar projects in the same region. We believe 
that the 4(d) rule should be developed first, and depending on the 
need, we would then decide whether a template habitat conservation plan 
would provide an additional benefit to streamline ESA compliance. 
Currently, we are involved in developing best management practices and 
the Desert Renewable Energy Conservation Plan that would streamline 
permitting processes on both Federal and non-Federal lands. These 
efforts, along with fulfilling the Department of the Interior's 
obligations under the Memorandum of Understanding (MOU) between 
Secretary Salazar and the Governor of California to streamline 
permitting of renewable energy on public lands, are our top priority.
    Question. FWS is apparently working to complete a MOU with other 
desert management agencies in order to establish a habitat mitigation 
bank similar to the bank I proposed in the California Desert Protection 
Act of 2010. Such a bank could speed up private project permitting, 
administratively. Will you pledge to get this bank running by the end 
of the year?
    Answer. FWS, along with BLM, California Department of Fish and Game 
and the California Energy Commission, comprise the Renewable Energy 
Action Team (REAT) in California. The REAT agencies recently signed an 
MOU with the National Fish and Wildlife Foundation (NFWF) to manage a 
mitigation account available for renewable energy projects in the 
desert region of southern California that occur on both public and 
private lands. This account is already available to project applicants. 
This account is not a habitat mitigation bank. It's a streamlining 
mechanism to achieve described mitigation actions for biological 
resources required under Federal and California State laws. Use of the 
NFWF account does not provide a section 7 nexus under the Federal 
Endangered Species Act. Use of the habitat mitigation bank as described 
in the proposed California Desert Protection Act of 2010 would provide 
a section 7 nexus under the Federal Endangered Species Act.
    Question. I appreciated you and David Hayes pledging to make solar 
development on private lands a Department priority. As you know, FWS 
has never retracted its statement that projects on private lands could 
take 9 years to permit. Are you willing to revise FWS's estimate that 
these projects may take 9 years to permit? If so, how many years do you 
believe it would take to obtain a permit from FWS to develop a utility-
scale solar project on private lands, if the project had endangered 
species impacts comparable to projects on public lands that BLM is 
currently reviewing on a ``fast track'' schedule?
    Answer. The 9-year estimate for completion of Habitat Conservation 
Plans (HCPs) likely originated from a 2008 presentation given to energy 
developers describing the HCP process. In that presentation, the FWS 
explained that in the past, some HCPs have been completed in 1-2 years, 
whereas others have taken from 6-9 years. The FWS also emphasized that 
it was developing streamlining mechanisms to ensure HCPs would be 
processed as rapidly as possible. The length of time is dependent on 
the size of the project and the complexity of all impacts considered 
under the NEPA process that must take place when developing an HCP.
    Question. In order to facilitate renewable energy permitting, you 
have proposed to increase resources for BLM much more rapidly than you 
have proposed to increase resources for FWS. Please explain whether you 
believe this budget request is consistent with the pledge you made 
during the hearing to make permitting projects on private lands a 
priority.
    Answer. The 2011 budget request reflects an increased priority on 
permitting for renewable energy development on both Federal and non-
Federal land, and funding increases will benefit both.
    Question. In your testimony, you announced a goal of permitting 
9,000 megawatts of new solar, wind and geothermal electricity 
generation on Federal land by the end of 2011. If you did that all with 
solar power, it would require approximately 58,000 acres of 
development. Such development would require only approximately 20 
percent of the acreage placed into BLM's solar study zones in 
California, and demonstrates that there is plenty of opportunity to 
develop solar power while protecting the most pristine portions of 
California's desert. What is your target number of megawatts that you 
would like FWS to permit on disturbed private land by the end of 2011?
    Answer. FWS does not establish a target for megawatts permitted, 
but will continue to respond to all permit requests it receives with 
respect to renewable energy. There is no threshold at which FWS will 
cease responding to requests for consultation or assistance with HCP 
development of renewable energy projects.
    Question. Developers proposing solar development on private land 
may be able to avoid massive delays in FWS permitting by applying for a 
Federal loan guarantee from the Department of Energy (DOE). Under this 
scenario, FWS would be the consulting agency to DOE, which would be the 
lead Federal agency under NEPA. However, DOE would then have to 
evaluate the full environmental impacts of the solar project, for which 
BLM has built up the greatest amount of knowledge and expertise. Do 
BLM's RECOs stand ready to assist the DOE and FWS in completing NEPA 
review of private lands projects as expeditiously as fast track BLM 
projects on public lands?
    Answer. The BLM RECOs do not currently have the authority or staff 
to assist DOE and the FWS in the NEPA review of solar energy 
development projects on private land. Any proposed expansion of the 
responsibilities of the RECOs to cover projects on private lands would 
have a significant and negative impact on the ability of the BLM to 
respond to renewable energy or related transmission projects on the 
BLM-administered public lands.

                         CATEGORICAL EXCLUSIONS

    Question. BLM has required California's renewable developers to 
make large deposits of funds in a cost recovery account and prepare 
extensive EAs in order to set up meteorological measurement devices. 
Some companies have been waiting years for permission to study the 
weather. That is both out of balance with the limited, temporary 
environmental impact of meteorological measurement devices, and in 
apparent conflict with national BLM policy to use categorical 
exclusions in these cases.
    In response to my recent letter on this matter, you stated that 
``the BLM will make diligent use of CXs for applications and project 
areas in accordance with applicable law, regulation, and BLM policy.'' 
However, you did not clarify whether BLM would begin using CXs in 
California, where the backlog of proposed projects is the longest. Does 
BLM plan to use categorical exclusions more frequently and whenever 
appropriate in California, so that developers can rapidly determine 
which proposed development sites are viable and which should be 
abandoned?
    Answer. The BLM will continue to use categorical exclusions where 
appropriate. The BLM determines whether to use a categorical exclusion 
on a project-specific basis by determining the scope of a project and 
its potential impacts.

                             MILITARY LAND

    Question. Many of the best lands for renewable energy development 
in California lie on military bases, and in the California Desert 
Protection Act of 2010, I proposed requiring the military to complete 
an EIS with regard to its renewable energy development program. I also 
secured funding in the fiscal year 2010 budget for a study of the 
potential for renewable energy development on California military 
lands. My staff arranged a series of meetings between your Department 
and the Defense Department in 2009 in order to assure that conflicts 
over jurisdiction between your two Departments would not serve as a 
barrier to utility-scale renewable energy development on military 
bases. Please provide an update on the status of your conversations 
with the Department of Defense on this matter. Please explain by when 
you intend to have a clear agreement or formal understanding 
established between the two departments regarding all potential 
conflicts that could slow renewable energy development on military 
bases.
    Answer. The Department believes there are benefits to the 
development of renewable energy projects on military lands that do not 
conflict with the military mission for those lands. In addition, the 
idea of siting renewable energy projects on military bases which are 
already off-limits to the public is gaining ground with many 
stakeholders and the public. For military installations located on BLM-
withdrawn lands, the development of renewable energy projects must be 
consistent with the terms of the withdrawal.
    Renewable energy development on withdrawn military lands in the 
California Desert is a significant policy issue currently being 
coordinated between the Department of the Interior and the Department 
of Defense. The two Departments are committed to resolving this issue 
as quickly as possible so the public and the industry have a clear 
articulation of Federal policy concerning renewable energy development 
on withdrawn military lands.

                              TRANSMISSION

    Question. The Tehachapi Renewable Transmission Project (TRTP), if 
completed, will include 250 miles of new and upgraded high-voltage 
transmission lines capable of delivering 4,500 megawatts of renewable 
power from wind farms and other sources in the best wind resource area 
in California to the people of greater Los Angeles.
    In these difficult economic times, I believe it is vitally 
important that we make permitting major infrastructure projects like 
this transmission line a national priority. While the State of 
California has already approved this project, literally billions of 
dollars of private capital investment and thousands of construction 
jobs await final decisions by Federal agencies, including FWS and the 
U.S. Forest Service (USFS). Can you assure me that FWS has provided 
adequate staff to work with the Angeles National Forest on the 
Endangered Species Act review? Can you explain the degree to which the 
two agencies consolidate workload and facilities? Will FWS set and meet 
aggressive schedules for completing their work?
    Answer. Since consultation was initiated on December 21, 2009, FWS 
has been actively working on the consultation for the TRTP, committing 
substantial staff time from two field offices and the regional office. 
The FWS is committed to completing this consultation as rapidly as 
possible. The FWS works closely with the Angeles National Forest and 
has co-located staff at the USFS office. The FWS evaluates 
opportunities to improve collaboration and increase efficiencies with 
USFS and other Federal agencies as needed.

                              HYDRO POWER

    Question. The Kaweah Hydroelectric Project, part of which is in 
Sequoia and Kings Canyon National Park, is the subject of ongoing 
negotiations between the utility owner and the Park regarding a fair 
fee to the park in order to keep operating the facility.
    Two years ago, I wrote to you asking that you review the park's 
position, which struck me as incredibly unjust to California 
ratepayers. Also, the fiscal year 2010 Interior, Environment, and 
Related Agencies appropriations bill included language directing the 
Department to continue negotiations to reach a cost-effective 
agreement. However, I do not believe talks have occurred. I therefore 
would appreciate the answers to the following questions:
  --What is the park's current proposal on the annual fee to be 
        charged, and on what basis has the Park Service determined that 
        the proposed fee is fair?
  --By when will the Department of the Interior complete these 
        negotiations?
  --Will you assure me that the Park Service will demand a fee that is 
        fair to California ratepayers?
    Answer. The Department shares your desire to reach an equitable 
resolution on this issue. We continue to work on a solution and believe 
we will be able to provide a response outlining the resolution to this 
issue shortly.
    Question. Mr. Secretary, four of my Senate colleagues and I sent 
you a letter on September 15, 2009 expressing our opposition to the 
taking of off-reservation lands into trust for gaming purposes. Our 
letter encouraged you to use your evaluation of the Interior 
Department's policies on Indian gaming to maintain key components of 
the Department's January 3, 2008 guidance on taking off-reservation 
lands into trust for gaming purposes and to increase scrutiny of 
proposals to take off-reservation land into trust for gaming purposes.
    Additionally, it is my view that initial reservations and restored 
lands should be subject to a similar high level of scrutiny when 
evaluating modern and historical connections to land acquisitions. This 
includes meaningful opportunities for local jurisdictions to register 
their views with the Department.
    In my home State, voters approved a ballot initiative approving 
tribal gaming with the understanding it would be done on tribal lands. 
However, several questionable proposals for restored lands would bring 
casinos into urban, highly populated areas and along with them, the 
problems of increased traffic, noise, environmental impacts, and crime.
    Question. What is the status of your evaluation of the Department's 
policies on Indian gaming?
    Answer. The Department continuously evaluates its Indian gaming 
policies to ensure that they are consistent with the Indian Gaming 
Regulatory Act (IGRA), its own published regulations, applicable case 
law, and its continuing trust obligation to Indian tribes. We are 
currently reviewing policy in this area to determine what changes, if 
any, are needed.
    Question. What solutions are you considering to balance the 
economic development goals of Indian tribes with the impacts of casinos 
on air quality, noise levels, community planning, and the environment?
    Answer. The Department believes Congress struck the proper balance 
between tribal and State interests when it passed the IGRA in 1988. 
Within the scope of the IGRA and the Department's trust acquisition 
authority, the Department has promulgated regulations to ensure the 
views and concerns of local communities are properly considered. 
Additionally, the National Environmental Policy Act of 1969 and the 
Department's regulations at 25 CFR part 292 ensure Indian gaming 
proposals are subject to rigorous environmental review. The Department 
will continue to evaluate its policies to ensure they are consistent 
with the IGRA, NEPA, the Department's own published regulations, 
applicable case law, and our continuing trust obligation to Indian 
tribes.
    Question. Are current regulations and guidelines sufficient to 
address the trend of off-reservation gaming proposals?
    Answer. There have been numerous tribal proposals to develop off-
reservation gaming facilities since the IGRA's enactment in 1988. Out 
of these proposals, only a relatively small number have been approved. 
While the Department believes current regulations allow it to address 
State and local concerns regarding the trend of off-reservation gaming 
proposals, it will continue to evaluate its policies to adhere to both 
the Federal trust obligation to tribes and the balance Congress struck 
when it enacted the IGRA.
    Question. Are current regulations and guidelines sufficient to 
address restored lands applications for land that might be used for 
gaming?
    Answer. While the Department believes current regulations allow it 
to address State and local concerns regarding restored lands 
applications, it will continue to evaluate its policies to adhere to 
both the Federal trust obligation to tribes and the balance Congress 
struck when it enacted the IGRA.
    Question. Is additional legislation necessary to clarify 
congressional intent with regard to limits on off-reservation gaming?
    Answer. As referenced above, the Department believes Congress 
struck the proper balance between competing interests when it enacted 
the IGRA, and that Congress carefully considered the implications of 
the exceptions to the prohibition on gaming on lands acquired after 
October 17, 1988. Therefore, the Department does not believe additional 
legislation is necessary.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd

      OFFICE OF SURFACE MINING RECLAMATION AND ENFORCEMENT (OSMRE)

    Question. I am deeply troubled by two spending reductions proposed 
within your Department.
    Within the Abandoned Mine Reclamation Fund for the OSMRE, the 
President's budget proposes to reduce discretionary funds by $4.5 
million for State emergency reclamation grants and federally managed 
emergency projects. As you know, this program has cost an average of 
$20 million per year for the past 10 years. This is a dangerous 
reduction given that these monies are used to fund immediate actions to 
protect health and safety and human life from an emergency situation 
resulting from the adverse effects of coal mining. This cut is 
completely contrary to the ideals of protecting the families adversely 
affected by the mining in their communities.
    Within the ``Regulation and Technology'' account for the Office of 
Surface Mining Reclamation and Enforcement, the President's budget 
proposes an $11 million reduction in funding for State grants to 
regulate and enforce the permitting process for surface mining. This is 
a reversal from last year, when the President sought to increase 
funding for surface mining enforcement. The administration proposes to 
reduce this funding pursuant to its commitment to the G-20 nations to 
reduce subsidies for fossil fuels. The President's budget encourages 
States to raise user fees on coal producers to offset the loss of 
Federal funding for mining regulation.
    In this fiscal and political environment, Appalachian States are 
unlikely to be able to muster the support to raise fees on coal 
producers, which will result in those States having fewer dollars to 
enforce land and water protection laws.
    Taken together, these are impractical and dangerous spending cuts 
that will impede efforts to ensure that surface mining is conducted 
within the parameters of the law and that past mining practices do not 
continue to haunt the citizens of mining communities.
    Question. How can the Federal Government meet its responsibility to 
enforce environmental protection laws if the President's budget does 
not provide adequate resources?
    Answer. The proposal is consistent with the administration's 
commitment to reduce Federal subsidies to fossil-fuel industries. While 
other energy industries must pay user fees to reimburse the Federal 
Government for regulatory costs, coal fees are very low. The budget 
reduces State grants in order to encourage States to increase their 
cost recovery from the coal industry.
    In addition, the 2006 Surface Mining Reclamation and Control Act 
amendments extended the authority for fee collection through September 
30, 2021, and changed the way that State and tribal reclamation grants 
are funded, beginning in fiscal year 2008. State and tribal grants are 
now mandatory and are derived from current AML fee collections and the 
general fund of the U.S. Treasury. The amendments dramatically 
increased funding from $132 million in fiscal year 2007 to $369.1 
million in fiscal year 2010. Because the States and tribes now receive 
increased mandatory AML grants, they have adequate resources to address 
emergency AML issues. The OSMRE will continue to work with the States 
to ensure a smooth transition.
    Question. How can the Federal Government ensure better enforcement 
if it does not provide monies to the States to implement the Federal 
mandates?
    Answer. The fiscal year 2011 budget decreased State and tribal 
grants by 15 percent of what was requested, or about 7.5 percent of 
total State regulatory costs. The budget does not propose to shift the 
burden of the cost to the States. Rather, it encourages the States to 
increase fees paid by the industry that receives the benefit of the 
services States provide. The OSM is willing to work with the States to 
assist in fee recovery. Therefore, we believe this is an equitable 
proposal.
    Question. In recent years, the Charleston field office (CHFO) of 
OSMRE has issued a number of oversight reports on blackwater spills; 
flyrock incidents (causes of the incidents, as well as the processes 
for reporting and investigation); slurry impoundments breakthrough 
potential; and surface water runoff analysis (i.e., whether rain on 
certain types of surface mines and valley fills exacerbates flooding). 
Please describe (a) the actions taken by the relevant stakeholders 
following those reports, and (b) your current assessment of the 
adequacy of those actions in addressing these problems over the long 
term.
    Answer. Oversight studies and reports are not limited to findings 
of compliance. Rather, the reports often include suggested 
discretionary actions aimed at improving the program beyond what is 
required. The following provides examples of oversight studies that are 
used to ensure a State Regulatory Authority's compliance with its 
approved surface coal mining program and create positive change.
  --Blackwater Spills.--This oversight report, completed in October 
        2009, was a follow-up to a 2004 report on the same subject. 
        Despite the State's compliance with its approved program and 
        various programmatic improvements made after the 2004 report, 
        the 2009 report noted that blackwater spills were still 
        occurring at the same rate as the earlier 2004 study and that 
        these occurrences are still mostly related to human error--as 
        opposed to any design flaw or operational issue. Therefore, the 
        joint OSMRE and State team recommended increased use of 
        increased fines, permit suspensions, and consideration of 
        criminal penalties.
  --Actions by Stakeholders.--Since completion of the study, the West 
        Virginia Department of Environmental Protection (WVDEP) 
        reviewed more recent spill data and reported that it is 
        experiencing a decrease in the number of spills over the rates 
        noted in the 2004 and 2009 reports.
    --Assessment of Adequacy of State Actions.--The OSM finds the State 
            activities specific to this report on blackwater spills is 
            adequate, but still believes the State could be more 
            aggressive in the timely pursuit of patterns of violation 
            related to permit suspension. The OSM is continuing to 
            review State activities related to pattern of violations as 
            requested by interested citizens on other types of 
            violations.
  --Fly Rock Incidents.--This topical study was conducted with the 
        assistance of the WVDEP's Office of Explosives and Blasting 
        (OEB) and was completed in March 2009. The study found the OEB 
        (created in 1999) did a thorough job in review of blasting 
        incidents. However, the reviewers noted the OEB was not always 
        notified of all flyrock incidents by inspectors from the 
        State's Division of Mining and Regulation. The reviewers also 
        expressed concern with the number of vacancies within OEB.
    --Stakeholder Actions.--The WVDEP agreed the OEB should always be 
            involved in any flyrock violation. The WVDEP implemented 
            new operating procedures that increased the involvement of 
            OEB in flyrock investigations. The WVDEP also agreed to the 
            imposition of additional remedial measures following a 
            flyrock incident.
    --Assessment of Adequacy of State Action.--The OSM found the action 
            taken to be adequate. The OSM is currently reviewing the 
            WVDEP regulatory program staffing levels as an independent 
            oversight evaluation.
  --Slurry Impoundment Basin Breakthrough Potential.--The OSM's CHFO 
        conducted two studies in 2006 and 2008, reviewing 10 coal mine 
        waste impoundments. These studies evaluated the adequacy of the 
        State's review to determine the potential for impounded slurry 
        to breakthrough into underground mine workings. In 2009, the 
        CHFO initiated a broader study involving 15 impoundments.
    --Stakeholder Actions.--The WVDEP resolved the site specific issues 
            from the previous evaluations and is fully engaged in the 
            ongoing oversight evaluation. Citizens have requested the 
            OSM investigate specific dams and impoundments and those 
            investigations are ongoing.
    --Assessment of Adequacy of State Actions.--State actions to date 
            have been adequate for site specific cases but the OSM 
            cannot reach conclusions about the overall adequacy of 
            program activity until the current study is finalized.
  --Surface Water Runoff Analysis.--The State regulations refer to this 
        assessment as a ``Storm Water Runoff Analysis'', or SWROA. The 
        SWROA is an analysis of the projected runoff from a permitted 
        area using hydrologic modeling of a rainfall event on 
        representative mine site conditions before and during mining 
        and after reclamation. The March 2009 oversight report reviewed 
        the effectiveness of implementing the SWROA requirements.
    --Actions by Stakeholders.--Since the report, the WVDEP has 
            conducted staff training to address identified issues. The 
            WVDEP also plans to host an industry SWROA workshop to 
            clarify SWROA requirements. The WVDEP has also agreed to 
            monitor violations on a yearly basis to determine if there 
            is a trend in offsite impacts that are related to excessive 
            peak discharges. This information would be used to 
            determine if further regulatory changes may be warranted.
    --Assessment of Adequacy of State Actions.--The OSMRE agreed with 
            the actions listed above and is monitoring WVDEP's progress 
            in developing further training parameters and hosting a 
            workshop for industry.

                     U.S. GEOLOGICAL SURVEY (USGS)

    Question. Reports issued by the USGS and the Bureau of Mines over 
the past two decades have raised serious questions about the exhaustion 
of economically recoverable coal reserves in Central Appalachia. How 
can the USGS more effectively use its own resources, and also partner 
with other Federal and State agencies that possess the relevant 
analytical capacities, in order to publish analyses of the amount of 
coal that the Northern and Central Appalachian Basin coal regions could 
produce under a range of assumptions about demand and production costs? 
What plans does the agency have to accomplish these objectives? If it 
has none, please explain why.
    Answer. Estimates of that portion of the in-place coal resources 
that are currently economically recoverable (the reserve base) are very 
important for understanding how coal can contribute to the Nation's 
energy mix and future. The USGS has recently refined its coal 
assessment methodology to take advantage of improvements in computer 
hardware as well as in geologic and mining model software. As a result, 
the scope of USGS coal resource assessment capabilities (including 
those of technically and economically recoverable resources) has grown 
in size from a few small areas to whole coal fields or basins. Thus, 
the current generation of USGS U.S. coal assessments is not only an 
enhancement of what is calculated (in-place resources, but also 
technically and economically recoverable resources), but will also 
produce a systematic determination of the coal reserve base on a 
regional basis in all the major coal provinces in the Nation.
    The correlation of each individual coal bed of economic importance 
is necessary for the determination of the economically recoverable coal 
resources. Although this approach is time consuming, correlation of 
individual beds is essential to build integrated, multiple-bed geologic 
computer models that can then be analyzed by mining economic software 
to better estimate economically recoverable coal resources. Regional 
estimates of economically recoverable coal resources will provide 
energy planners a much more meaningful appraisal of the amount of coal 
that is currently and realistically recoverable in the foreseeable 
future.
    The first U.S. coal basin to be evaluated in this current 
assessment program is the Powder River Basin (PRB) in Wyoming and 
Montana. The PRB is the largest coal basin in the United States in 
terms of mined tonnage, supplying more than 40 percent of the total 
coal produced in the United States. The Gillette coal field alone 
accounts for more than 90 percent of the PRB coal production. 
Furthermore, there are extensive Federal lands within the PRB. USGS has 
published a new coal assessment of the Gillette coal field (http://
pubs.usgs.gov/of/2008/1202/) calculating the in-place resources as well 
as those that are technically and economically recoverable. This work 
continues on the whole of the PRB. Once the PRB is completed, regional 
scale coal assessments will continue on all significant coal beds in 
all major U.S. coal basins.
    Currently, the State geological surveys of West Virginia, Kentucky, 
and Virginia are working on re-correlating their States' coal beds. 
Once this work is completed, we will work with these State surveys, 
using their revised data sets to determine the technically and 
economically viable coal resources using the USGS methodology used in 
the other States. USGS currently funds a portion of this State work 
through our National Coal Resources Data System State Cooperative 
Program.
    This USGS methodology does not include a range of assumptions about 
demand and production costs, as that is beyond the scope of USGS 
purview or ability, especially from supply and demand perspectives. We 
have worked with other agencies, such as BLM and the Energy Information 
Administration, to share with them what we are doing, so as to make our 
data and results useable for a variety of purposes, including various 
scenarios or forecasting analyses.
    Question. When will the USGS be releasing more detailed assessments 
of the Appalachian coal-producing regions (e.g., including mapping 
(GIS) and other data regarding stripping ratios, drill holes, surface 
areas with previous coal mining, etc.)? Please describe the programs 
through which the USGS or other Federal agencies can provide additional 
money to State geological surveys, in order to enhance and expedite the 
development of these studies?
    Answer. Current USGS work in coal assessments is focused in the PRB 
of Wyoming and Montana, as the largest coal producing basin in the 
United States. Current cooperative efforts with the State geological 
surveys in the Appalachian Basin focus on supporting their efforts to 
re-correlate their States' coal beds to provide a foundation for 
resource estimation. The USGS National Coal Resources Data System State 
Cooperative Program has continuously supported State geological surveys 
in coal-related work since 1975, with West Virginia being 1 of the 3 
initial States funded that year. In fiscal years 2005-2009, the USGS 
provided financial assistance for compiling data to assist in the 
estimation of coal resources in the Appalachian Basin to Alabama, 
Kentucky, Ohio, Pennsylvania, Tennessee, West Virginia, and Virginia. 
Funds were used to encode hardcopy data to digital format, for 
geologists' time to correlate the newly digitized coal information, to 
support the collection of GIS information (mined areas, etc), and to 
create GIS coal bed maps (e.g., coal structure, isopach). The USGS will 
continue to provide funding to these States contingent upon funding 
availability through the appropriation process. Data such as stripping 
ratios, drill holes, footprints of available mine maps, and related 
data will be made available as part of these efforts.

                        ECONOMIC DIVERSIFICATION

    Question. In June 2009, the administration released a Memorandum of 
Understanding (MOU) entitled ``Implementing the Interagency Action Plan 
on Appalachian Surface Coal Mining.''
    The MOU noted that ``Federal agencies will work . . . to help 
diversify and strengthen the Appalachian regional economy and promote 
the health and welfare of Appalachian communities. This interagency 
effort will have a special focus on stimulating clean enterprise and 
green jobs development . . .''
    Question. What new programs or initiatives is the Department 
proposing to advance economic diversification in Appalachia?
    Answer. The Federal Government has made a commitment to move 
America toward a 21st century clean energy economy based on the 
recognition that a sustainable economy and environment must work hand 
in hand. Under the MOU, we are working in coordination with appropriate 
State, regional, and local entities, and other Federal agencies to help 
diversify and strengthen the Appalachian regional economy and promote 
the health and welfare of its communities. This interagency effort will 
focus on stimulating clean enterprise and green jobs development, 
encouraging better coordination among existing Federal efforts, and 
supporting innovative new ideas.
    Question. What new resources is the Department requesting to 
advance economic diversification in Appalachia?
    Answer. The Department is not requesting any new resources; rather, 
it is applying continuing programs to support this effort. Two ongoing 
programs that contribute to this initiative sponsored by OSMRE are the 
Appalachian Regional Reforestation Initiative (ARRI) and the Office of 
Surface Mining/Volunteers in Service to America (OSM/VISTA).
    The ARRI is a cooperative effort between the Office of Surface 
Mining and the States of the Appalachian region to encourage 
restoration of high-quality eastern hardwood forests on active and 
reclaimed coal mine sites. Successful re-establishment of the hardwood 
forests that once dominated these lands will provide a renewable, 
sustainable multi-use resource that will create economic opportunities 
while restoring a healthy ecosystem. Thriving forests provide local 
jobs for an existing and growing timber industry, provide habitat for 
wildlife, and support a variety of recreation activities important to 
local human communities.
    The OSM teams with AmeriCorps' VISTA program--concerned with 
poverty, and coal country watershed groups--working in more than 30 
towns across the eight States of Appalachia to deal with environmental 
degradation. Through this partnership the Team targets problems 
associated with the legacy of pre-regulatory coal mining in Appalachian 
Watersheds. The OSM/VISTA Team places, trains, and supports college-
educated OSM/VISTA volunteers who live and work throughout coal country 
to promote social and environmental change at the grassroots level.
                                 ______
                                 
               Questions Submitted by Senator Jon Tester

                   TREASURED LANDSCAPES AND THE CROWN

    Question. What criteria did you use to decide what would be your 
Treasured Landscapes? Why are all the projects coastal/water based? Mr. 
Secretary, when you visited Montana last summer, we talked about the 
importance of the Crown of the Continent Ecosystem; I am wondering why 
you excluded it? Are there plans to include it in future Great Outdoors 
America Projects or Treasured Landscape Projects?
    Answer. In developing the 2011 budget request, the Department 
looked across the Nation for geographic areas that faced significant 
and increasing challenges to protecting and restoring natural and 
cultural resource values. The Department looked for areas where 
Interior bureaus were already active, but could benefit from a more 
coordinated focus with other Interior bureaus, and other Federal and 
non-Federal partners. And the Department looked for areas where 
targeted investments could achieve real results.
    The five ecosystems included as part of the Secretary's Treasured 
Landscapes agenda met each of these criteria. These ecosystems will 
remain priorities for restoration and renewal through coordinated and 
targeted investments. The Department will continue to look for 
opportunities to leverage existing Federal conservation efforts for 
additional ecosystem restoration. As the Department's Climate Science 
Centers and the Landscape Conservation Cooperatives become operational 
they will be relied on to help prioritize and coordinate Federal and 
non-Federal efforts for ecosystem restoration nationwide, including 
those like the Crown of the Continent Ecosystem. The Great Outdoors 
America listening sessions are collecting input for opportunities 
including the Crown of the Continent.

                             YELLOWTAIL DAM

    Question. Secretary Salazar, a long-standing conflict has surround 
the Bureau of Reclamation's (BOR) management of the Yellowtail Dam and 
maintaining water for the boat launch at Horseshoe Bend, behind the dam 
at the expense of a trout fishery below.
    Last year my college, Senator Max Baucus, initiated an Inspector 
General (IG) investigation as to the handling of flows of water into 
this reservoir. First, I understand this IG report is not happening. 
Why not?
    Answer. BOR's headquarters was contacted by the Office of the 
Inspector General (OIG) and information was submitted. We have not 
received any correspondence or requests from the OIG since that time.
    Question. Will you start the investigation?
    Answer. In addition to supplying the information to the OIG, BOR 
formed the Bighorn River System Issues Group in March 2007, as a means 
to collaboratively identify and investigate ways to optimize the 
benefits provided by the Yellowtail Unit. BOR conducts monthly outreach 
conference calls with interested parties to disseminate up-to-date 
operations information and to provide a mechanism for stakeholder input 
and feedback.
    Question. Understanding this issue spans the boundary of two 
States, what cooperative management plans are you undertaking to make 
sure that in low water years Montana and Wyoming share the burden of 
lower water, not one side disproportionally?
    Answer. BOR manages the water; the National Park Service manages 
the Bighorn Canyon National Recreation Area. BOR engages stakeholders 
and customers in reservoir operations-related issues through the 
Bighorn River Basin Issues Group through monthly (or more frequent) 
reservoir operations updates. Individuals from both Montana and Wyoming 
are represented on the Issues Group.
    Question. Why are the three dams in that drainage managed 
independently?
    Answer. The three dams are operated in a coordinated manner. Boysen 
and Buffalo Bill are under the jurisdiction of the Wyoming Area Office 
located in Mills, Wyoming. Yellowtail Dam is under the jurisdiction of 
the Montana area office located in Billings, Montana. Both offices 
operate under the guidance and purview of the Great Plains regional 
office, also located in Billings, Montana.
    Question. Would you consider returning them to coordinated 
management to address the issues in Bighorn Drainage?
    Answer. The operation and management of the dams is presently 
coordinated between the Wyoming area office and the Montana area 
office. These offices are responsible for operating the dams to provide 
benefits consistent with congressional authorizations, water supply 
contracts with customers, and State-based water law in Wyoming and 
Montana.

                            RENEWABLE ENERGY

    Question. Over the last year you have open up renewable energy 
pilot offices in Wyoming, Arizona, California, and Nevada. I championed 
the work of renewable energy coordination offices (RECOs) in the 2009 
energy bill and fully support the idea.
    Do you plan to expand these offices beyond those four States? When 
do you plan on locating an office in Montana, where we have excellent 
renewable resources?
    Answer. The Department has established the Bureau of Land 
Management (BLM) RECOs in Arizona, California, Nevada, and Wyoming to 
support those States with the largest number of renewable energy 
applications for public lands. Funding has been provided to other 
States, including Montana, for additional renewable energy support 
staff. The BLM office in Montana has received funding for five 
additional renewable energy support positions. However, due to the 
limited workload to date and the number of pending applications, only 
two positions have been filled. The BLM will respond to any future 
needs as they are identified.
    Question. Mr. Secretary, you have made renewable energy and 
transmission development a priority in your office, increasing funding 
to $73.3 million, an increase of $14.2 million.
    What are you doing in Montana to realize these goals?
    Answer. The BLM has provided additional funding to Montana to 
support renewable energy support staff and to respond to any renewable 
energy and transmission development projects in Montana. The workload 
in Montana has not materialized as anticipated; however, the BLM is 
prepared to respond as needed. There are several proposed transmission 
projects that are currently being reviewed and the BLM has placed a 
priority on the processing of these applications. In addition, the BLM 
is currently preparing guidance to implement an Interagency 
Transmission Siting Memorandum of understanding (MOU) that was signed 
by the Secretary in October 2009. This guidance provides procedures for 
improving the coordination in permitting of electric transmission 
facilities on Federal lands. Transmission projects in Montana will be 
processed consistent with the provisions of the Interagency MOU and the 
BLM implementation guidance.

                    FISH AND WILDLIFE SERVICE (FWS)

    Question. Recently I learned the number of people working on FWS 
staff in the State of Montana and region 6 is almost half of other 
regions, like Oregon and Washington. To address this low level of staff 
funding, it has come to my attention that FWS is considering closing 
the Billings field office, which houses the wildlife biologist for 
eastern Montana. Montana's expanding energy renewable frontier and 
increasing investment in domestic fossil fuel production often require 
environmental consolations from the FWS to swiftly complete the 
planning of projects. This especially true after Friday, March 5, when 
the Sage Grouse was listed as ``warranted but precluded,'' adding it as 
another species whose progress must be watched.
    Mr. Secretary, what is the formula for calculating how much each 
State receives for staff?
    Answer. Staffing for the Ecological Services (ES) offices is funded 
from the habitat conservation and endangered species programs. The 
allocation formula for the endangered species subactivities was 
developed in fiscal year 2000. According to this method, each region 
receives funding based on weighted complexity factors for candidate and 
proposed species occurring in each region. For example, aquatic species 
and wide-ranging species are considered more complex than terrestrial 
species with smaller home ranges. As part of the end of year reporting, 
Regions are asked to review the species weights and provide the 
Washington office with any changes that are necessary, along with 
documentation as to why the change is required.
    Base funding is disbursed to the ES field offices from an 
allocation methodology that is consistent across all field stations, 
based on FTEs at each field station. Increases and decreases are based 
on workload and priority issues.
    Question. Are you planning to close the Billings office?
    Answer. FWS's Billings, Montana ES field office staff has been 
reduced over the years to two staff members, an administrative staff 
person and a biologist. FWS is terminating the current General Services 
Administration (GSA) lease for the Billings Montana ES suboffice. The 
remaining biologist position will still be located in Billings in GSA 
space that fits the needs of a one-person office. The administrative 
assistant position will be moved to the Montana ES field office in 
Helena.
    Question. How do you plan to make sure that Montana has adequate 
staff to assure that there are not delays in analyzing energy and 
development projects?
    Answer. FWS's Federal activities review and section 7 consultation 
programs do their best to address all project proposals provided for 
consultation, informal or formal, in a timely manner. Workload 
distribution across field offices is managed by the field supervisor in 
coordination with their regional office. These field supervisors will 
ensure workload is managed to avoid delays.

          COOPERATIVE WATERSHED MANAGEMENT ACT/WOLF KILL BILL

    Question. Mr. Secretary. I included two provisions in the last 
omnibus public lands bill, which passed last January: The Cooperative 
Watershed Management Act and the Livestock Loss Mitigation Act. Both of 
these provisions were directed to have their rules written and funding 
project within a year. But to my knowledge neither of these programs 
have finished rule making and your budget this year does not fund them 
in fiscal year 2011.
    Can you assure me that you will prioritize finishing the rules on 
these important programs as quickly as possible?
    Answer. The Department is currently collecting comments from States 
and will complete this phase by the end of May. As emphasized in the 
Cooperative Watershed Management Act, States play an important role in 
supporting watershed groups and there are as many approaches to 
watershed management as there are States. These comments will help the 
Department shape both the application development and program 
implementation. In February 2010, I issued an order directing the 
Department to implement the new WaterSMART program. The Cooperative 
Watershed Management Program is an important component of this new 
initiative. The act created a new tool for Interior to work at the 
watershed level where restoration and management decisions need to be 
made. The program framework should be in place this summer.
    Question. How about prioritizing their funding next year?
    Answer. I have asked bureaus to work together to identify seed 
money for this program. Once the program framework is in place, we will 
identify pilot areas where we can test the new program and make needed 
adjustments. At that time we will be able to make a better decision on 
the level of funding that would be necessary to implement the program 
and consider its inclusion in future budgets.
    Question. In the interim, the livestock loss mitigation program was 
funded in fiscal year 2010. The goal of the program is to reduce and 
compensate for predation by reintroduced wolves.
    Can you assure me that the funds you distribute this year for this 
program will focus on preventing and compensating predation, 
specifically to States that have predation data?
    Answer. Yes, the funds will be focused on prevention and 
compensation of predation by wolves.

                LAND AND WATER CONSERVATION FUND (LWCF)

    Question. I'm pleased that you are a supporter of the LWCF, which 
has protected important places like Red Rock Lakes National Wildlife 
Refuge and the Blackfoot River Watershed in Montana, among other areas 
across the country important for conservation, historic preservation, 
and public recreation. I was pleased to see almost $25 million proposed 
for deserving projects in Montana this fiscal year, which can help 
protect Montana's outstanding wildlife habitat and recreational 
opportunities in places like the Rocky Mountain Front. According to a 
recent Federal study, more than 291,000 anglers in Montana spend more 
than $226 million annually, nearly 200,000 hunters in Montana spend 
more than $310 million annually, and more than 750,000 wildlife 
watchers in Montana spend more than $376 million annually. We need to 
ensure these economic activities are maintained while also improving 
public access and enjoyment for other Montanans.
    Mr. Secretary, what can the Department do to ensure greater support 
for funding the LWCF?
    Answer. The Department of the Interior supports fully funding the 
LWCF and is on target to reach the full annual funding level of $900 
million by 2014 with the Department of Agriculture. Interior's 2011 
budget request reflects our commitment with a request of $445.4 
million, an increase of $135 million above the 2010 enacted funding 
level. The total request for LWCF, including USDA, is $619.2 million. 
In addition, Interior will receive another $740,000 in mandatory 
appropriations through the Gulf of Mexico Energy Security Act for the 
NPS State LWCF activities in 2011.

                              RURAL WATER

    Question. In September, Commissioner Connor testified that BOR has 
a backlog of more than $2 billion in authorized rural water projects. 
As you know, several of us are working to authorize more projects. As 
you also know, these projects don't get cheaper with time. How do plan 
to address the backlog?
    Answer. The first priority for funding rural water projects is the 
required O&M component, which is $15.5 million [BOR-wide] for fiscal 
year 2011. For the construction component, BOR allocated funding based 
on objective criteria that gave priority to projects that serve on 
reservation needs; and percent of project complete.
    Question. How do you plan to address the projects that you will 
inherit soon?
    Answer. Using the criteria above, BOR will continue to budget for 
construction of ongoing authorized rural water projects within budget 
targets.
    Question. The fiscal year 2011 budget justifications for DOI 
include budget requests of $27.5 million for tribal trust accounting at 
DOI's Office of Historic Trust Accounting, a portion of $13.5 million 
for the DOI Office of Trust Records to index inactive records sent to 
the American Indian Records Repository, and a portion of $67.9 million 
at the Office of the Solicitor for its Indian Trust Litigation Office. 
How much in appropriations is the Department seeking for fiscal year 
2011 specifically relating to the pending tribal trust cases?
    Answer. The Department's budget request includes $27.5 million in 
OST's budget for tribal historical accounting and another $4 million to 
be transferred from OST's Records budget to the Solicitor's Office for 
litigation support. This provides $31.5 million for tribal historical 
accounting and related litigation support. Funding for trust records is 
not separated between IIM and tribal activities.
    Question. Have you committed senior-level officials to working on 
the tribal trust cases now that there has been a settlement agreement 
in the Cobell case? Also, how long do the Departments foresee that 
litigation of these cases will go on, and how much more appropriations 
do the Departments anticipate, before we can start to see settlements 
for these cases?
    Answer. It is the administration's goal to resolve as many of the 
tribal lawsuits as possible, and senior-level officials are committed 
to resolving these cases. Direct, informal negotiations between the 
parties generally are facilitated by temporary joint stays of 
litigation agreed to by the courts. In some instances, settlement 
negotiations are facilitated by a third-party neutral evaluator or 
settlement judge. For example, Alternative Dispute Resolution (ADR) 
Judge(s) from the Court of Federal Claims are working with Government 
and tribal representatives to reach negotiated settlements in several 
cases. Of the 95 tribal trust cases currently pending at the trial 
level, approximately 70 cases have been temporarily stayed so that the 
parties can pursue informal settlement discussions or formal ADR 
processes. Several cases are now in advanced phases of resolution where 
the parties are either considering specific settlement stipulation 
language and figures, or are on track to exchange settlement figures in 
the near future.
    Last fall, legal counsel acting on behalf of approximately 80 of 
the 114 American Indian and Alaska Native tribes that are litigating 
proposed a meeting to discuss possible settlement of tribal trust 
accounting and mismanagement claims against the United States. In 
April, senior officials from the Departments of Justice, the Interior, 
and the Treasury held an initial meeting with the designated 
representatives for this group to discuss the process for achieving 
global resolution of the cases without protracted litigation. The 
parties expect to reconvene before the end of June. Separately, senior 
officials from Interior and Justice have engaged with counsel for 16 
other litigating tribes seeking global resolution for that group of 
cases. Notwithstanding such global settlement efforts, the Department 
must continue necessary efforts to marshal information on trust funds 
and trust resources for the active pending cases.
                                 ______
                                 
             Questions Submitted by Senator Lamar Alexander

                LAND AND WATER CONSERVATION FUND (LWCF)

    Question. The administration's fiscal year 2010 budget includes 
$569 million for the Federal portion of the LWCF, a 37 percent 
increase, while the stateside grant program was increased from $40 
million to $50 million. The administration has pledged to fund the LWCF 
programs at the fully authorized level of $900 million by 2014.
    I'm very supportive of the Federal side of LWCF, but as a former 
Governor, I can't overstate how important the stateside grant program 
is for recreation, habitat and open spaces. Plus, that funding is 
matched dollar-for-dollar by grant recipients.
    The Great Outdoors America Report, produced by the top conservation 
minds and organizations in the country, called for permanent, dedicated 
funding for LWCF, with a share guaranteed to the States and urban 
areas.
    With the stateside backlog of $27 billion, shouldn't more funds be 
put into the stateside portion of the program rather than continuing 
such a heavy emphasis on the Federal side where the bulk of the funds 
have been going for years?
    Has the Department considered additional dedicated funding sources 
for LWCF, through new lease royalties or user fees?
    Answer. The Department is appreciative of the benefits gained by 
the States from the State grants program within the LWCF. The 2011 
budget increased funding for LWCF State grants by $10 million, an 
increase of 25 percent over the 2010 level. However, in these tough 
economic times, several States may not be able to take advantage of 
this program as it requires matching grants. In addition, several 
States are struggling to operate and maintain the parks that they 
already have. We will evaluate the balance of funds in the State grants 
and Federal parts of the account for fiscal year 2012 formulation.
    The 2011 budget includes a relatively new funding source for LWCF 
State grants. The revenues authorized by the Gulf of Mexico Energy 
Security Act will provide $740,000 for LWCF programs in 2011. There are 
no additional new revenue streams for LWCF proposed for 2011.

       CENTENNIAL INITIATIVE FOR THE NATIONAL PARK SERVICE (NPS)

    Question. Our National Parks across the country face serious 
operational and maintenance backlog issues. For the last 2 years, $100 
million plus inflationary costs has been added to the parks operations 
and maintenance account. This was added to address some of the 
maintenance backlog issues and to hire additional rangers, 
interpreters, and law enforcement personnel to enhance the visitor 
experience as the NPS moves toward its 100th anniversary.
    The National Parks Second Century Commission report, which was co-
chaired by Howard Baker, strongly encouraged the administration and 
Congress to continue the Centennial Initiative until 2016, which would 
eliminate the unfunded operations backlog of the NPS.
    Why is this funding not included in the 2011 budget request?
    Answer. The National Parks Second Century Commission outlines a 
vision for the National Parks that can be applied to all public lands. 
As custodians of our Nation's natural, cultural and historic resources, 
we have a duty to protect all of the places that Americans love, and to 
help all Americans connect with their land and heritage. That includes 
the 392 units of the national parks system, 551 national wildlife 
refuges managed by the U.S. Fish and Wildlife Service (FWS), and the 27 
million acre National Landscape Conservation System in the Bureau of 
Land Management (BLM).
    One of the goals of the administration is to protect these 
treasured landscapes by implementing wise stewardship, science based 
decisions, and forward-looking policies that help protect the Nation's 
land, water, and wildlife for future generations. The Treasured 
Landscapes Initiative in the 2011 budget supports operations on public 
lands that enhance the visitor experience, promotes ecosystem 
restoration, supports species recovery and protects habitat, and 
facilitates cultural resource preservation and conservation.
    The 2011 Treasured Landscape Initiative request shows our 
commitment to preserving the national parks and preparing for the 100th 
anniversary of the NPS in 2016. The NPS budget request includes $2.3 
billion for park operations including $51 million in additional funding 
requested as part of the Treasured Landscapes Initiative. The increases 
will be applied to targeted operational needs at 127 parks and to 
invigorate capacities in history, scientific research, and community 
assistance in accord with the recommendations of the National Parks 
Second Century Commission.
    The Treasured Landscape Initiative also provides an additional $80 
million for FWS science inventory and monitoring, $1.3 million targeted 
to new wilderness areas designated by the Omnibus Public Land 
Management Act of 2009, and $414,000 for high-priority operating needs 
in the BLM National Monuments and National Conservation Areas.

            FUNDING FOR GREAT SMOKY MOUNTAINS NATIONAL PARK

    Question. Not funding the Centennial Initiative further sets back 
our country's most visited park, the Great Smoky Mountains. I see that 
its budget is only $59,000 higher than last year which won't even keep 
pace with inflation and pay costs for park employees.
    The Great Smoky Mountains National Park, which has two or three 
times the visitors of some of our other popular parks, gets about half 
the funding of similar parks because of circumstances of history.
    How can this be changed so that the Smokies receives a fair amount?
    Answer. The 2011 Treasured Landscape Initiative request shows our 
commitment to preparing the parks for the 100th anniversary of the NPS 
in 2016. The NPS budget request includes $2.3 billion for park 
operations including $51 million in additional funding requested as 
part of the Treasured Landscapes Initiative. The increases will be 
applied to targeted operational needs at 127 parks and to invigorate 
capacities in history, scientific research, and community assistance.
    The 2011 budget includes increases for highest-priority needs based 
on an evaluation of many factors. Proposals submitted by park units 
throughout the Nation are evaluated on a competitive basis. The fiscal 
year 2011 budget request includes an increase of $238,000 for Great 
Smoky Mountains National Park. The additional funding will be used to 
conduct additional back country patrols, improve the safety of 
visitors, and protect resources from threats such as ginseng poaching. 
In fiscal year 2010, Great Smoky Mountains National Park received a 
base budget increase of $498,000.

             SITING OF RENEWABLE PROJECTS ON FEDERAL LANDS

    Question. I'm extremely concerned with what is being called 
renewable energy sprawl by at least one conservation group. We all want 
clean energy, but not at the expense of our landscapes and open spaces. 
I think Chairman Feinstein and I share concerns about the destruction 
of our landscapes, whether by traditional oil and gas extraction, 
renewable energy and transmission lines, along with the associated 
infrastructure required for energy projects. We've spent billions of 
dollars and over a century acquiring and protecting our public lands, 
and we should give the same scrutiny to renewable energy projects as we 
have to other traditional forms of energy leases in our Nation's 
history. With regards to wind energy specifically, companies in the 
Eastern United States want to site these wind projects on mountain 
ridge tops where the wind is the strongest, but the impact to scenic 
landscapes would be greatest. What we need is a national policy to 
protect our landscapes--coordinated with other agencies.
    I am also concerned about parity in our energy policy. Oil and gas 
leases will be required to pay royalties somewhere between 12 percent 
and 18 percent for energy production. I understand BLM and MMS will 
charge a much lower rate for renewable projects on Federal lands and 
offshore.
    How would you address criticism that you are raising royalties on 
oil and gas production when we have such a heavy reliance on foreign 
oil, while you are charging such a lower rate for use of the public 
lands for renewable energy production?
    Answer. As with other BLM and MMS energy permitting activities, the 
proposal to implement a rulemaking to raise onshore oil and gas royalty 
rates is guided by the administration's belief that American taxpayers 
should get a fair return on the development of energy resources on 
their public lands. A standard approach for determining what 
constitutes a fair return is to look at what other resource owners in 
similar positions charge for the sale or use of these resources. A 
comparison of prevailing oil and gas royalty rates in the United States 
indicates that the Federal Government is currently not receiving a fair 
return. The base royalty rate for oil and natural gas produced on 
Federal onshore lands has been set at 12.5 percent since 1920. By 
contrast the current average State royalty rate is 16.67 percent, and 
the royalty rate in Texas is 22.5 percent.
    Similarly, the Department intends to periodically assess the 
royalties and fees that are charged for renewable energy projects on 
Federal lands to ensure that they are in line with the amounts received 
by other landowners who permit their lands to be used for these 
projects. However, there are a number of reasons why what is considered 
a fair return may be lower for renewable energy projects than for oil 
and gas. One is that we are dealing with a nascent industry. Another is 
that the product being sold is not the same. For oil and gas, companies 
are paying a royalty (a percentage of the value of the resource) to 
permanently remove that resource from the Federal estate. For renewable 
resources like wind and solar energy, no Federal resource is being 
removed from the land. Instead, we charge rental fees based on the 
tenant's occupancy of a particular site.
    Beyond this guiding principle of receiving a fair return, the Obama 
administration shares your concern over the United States' heavy 
reliance on foreign oil. However, the administration recognizes that 
the country cannot solve this imbalance, which threatens both our 
energy security and our national security, by simply increasing 
domestic oil and gas production. From an energy supply standpoint, we 
are not capable of meeting the country's growing demand and appetite 
for energy through domestic conventional energy resources. For this 
reason, the administration is aggressively pursuing a comprehensive 
energy policy that promotes renewable and alternative energy 
development, encourages energy conservation, and continues to support 
environmentally sound development of fossil fuels in the right places. 
To advance this important national goal of reducing our dependence on 
imported energy, the administration and Congress have worked together 
to put in place incentives to promote and support the nascent renewable 
energy industry. It could be counterproductive if we were to simply 
offset those incentives with unjustifiably high fees for developing 
renewable energy projects on Federal lands.
    I also share your concern about protecting our public lands as we 
pursue renewable energy development. Under my direction, BLM is focused 
on developing renewable energy in a manner that protects the signature 
landscapes, wildlife habitats, and cultural resources of the public 
lands. As I have stated on numerous occasions, we want to implement the 
New Energy Frontier ``right from the start.'' This is being 
accomplished by conducting studies and analyses in advance to identify 
the most appropriate areas for siting renewable energy projects and 
transmission infrastructure, areas where conflicts with other resource 
values are avoided or minimized.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins

    Question. Europe built its first offshore wind farm in 1991. With 
the current 7.5 years Minerals Management Service (MMS) permitting 
process, it is unlikely that new utility-scale offshore wind projects 
will be operating in the Federal waters until the end of the decade. By 
that time, Europe will have hundreds of utility-scale offshore wind 
farms with a production capacity of 40 to 55 gigawatts (GW), and a 
total investment in excess of $150 billion. The United Kingdom alone 
will be producing a quarter of its electricity from offshore wind by 
2020, representing an investment of $120 billion and creating up to 
70,000 jobs. Here in the United States, we can't even get demonstration 
projects in the water in a timely manner to get the data needed for 
eventually building utility-scale projects.
    In my State of Maine, we have a 60-day permitting period for new 
technology research, development, and demonstration projects where new 
offshore wind turbine designs can be placed in the water for a limited 
period for performance testing and environmental assessment work. Will 
you consider developing such a 60-day permitting period and guidelines 
for full-scale new turbine research, development, and testing projects 
in Federal waters? Will you provide funding opportunities for the 
required environmental monitoring efforts so that monitoring protocols 
can be developed for these new technologies?
    Answer. The Secretary is committed to the expeditious and 
responsible development of clean renewable energy in the Atlantic Outer 
Continental Shelf. The MMS regulations incorporate Federal 
environmental and consultation requirements (including consultation 
with States), and also reflect time needed by developers to generate 
site data and submit project plans. Certain timeframes are therefore 
built in, such as conducting environmental reviews under the National 
Environmental Policy Act (NEPA) or complying with the Endangered 
Species Act or the Coastal Zone Management Act.
    However, the overall time the renewable energy permitting process 
could take will be influenced heavily by other factors, such as whether 
there is competitive interest in the area, what kind of resource 
assessment the developer needs in order to secure financing, the kind 
of technology the developer intends to use, and the level of 
consultation required with States, tribes, and other Federal agencies. 
As a general rule, the more prepared the developer is when it submits 
its application and the more multiple-use and environmental review 
issues that have been addressed in advance, the faster the process will 
move.
    The process can potentially take many years if a developer chooses 
to obtain a lease before beginning site work, and then takes several 
years to develop site data (the regulations allow a developer up to 5 
years) before designing and submitting final construction plans. These 
multiple approval steps may also necessitate additional NEPA analysis 
and State and Federal consultations. However, barring any serious 
multiple-use conflicts, the approval process may take as little as 3 
years if a developer is able to come fully prepared with completed site 
data and construction plans, and does not face competition from other 
interested developers.
    MMS is actively working with States and other Federal agencies to 
generate critical environmental data to help expedite Federal 
environmental reviews, and to address multiple use and other issues in 
advance of the leasing process. We are closely examining our 
regulations and the permitting process to look for ways to improve 
efficiency while still meeting all legal requirements, and maintaining 
robust and responsible environmental and safety standards.
    While Federal statutes will not allow for us to approve research, 
pilot, or demonstration projects in a 60-day timeframe, MMS provides a 
separate course of action for noncommercial technology testing and data 
collection leases that moves quickly. Indeed, under this procedure, the 
Department has already issued four leases for data gathering in support 
of future commercial offshore-wind projects. In addition, the MMS 
regulations allow the Director to issue leases to a Federal agency or a 
State for renewable energy research activities in areas where there is 
no competitive leasing interest.
    Regarding funding for environmental monitoring efforts, the MMS has 
issued a solicitation that includes developing environmental monitoring 
protocols for offshore renewable energy technologies. Currently, 
proposals are being reviewed and we intend to have this work begin in 
the near future. We appreciate your interest in expediting the 
responsible, environmentally sound development of the Nation's 
promising offshore wind energy.
    Question. Last summer we enjoyed a wonderful visit to Acadia 
National Park, a jewel of Maine's coast. Thank you for the American 
Recovery and Reinvestment Act money ($4.7 million) you announced last 
week to help rehabilitate the Schoodic Environmental Research Center, a 
former Navy base that now offers innovative educational programs that 
combine natural science research with field-based education.
    As you saw during your visit, Acadia is unique among National Parks 
in that it still contains many privately owned land parcels within the 
park's official boundaries. Looking forward at the fiscal year 2011 
budget, Acadia has the opportunity to purchase a key 39-acre parcel 
near Lower Hadlock Pond. The land is appraised at $3 million and your 
budget request includes $1.7 million in LWCF money to help acquire it. 
I understand it is a tough budget year, but I hope we can work together 
to get the park the full amount it needs to acquire this piece of land.
    Answer. In formulating the budget request for Federal land 
acquisition within the National Park System, the National Park Service 
applies criteria to rank and prioritize land acquisition at the park, 
regional, and national level. To leverage projects and resources and 
achieve maximum conservation benefits, projects were evaluated 
Department-wide. The projects included in the fiscal year 2011 budget 
request reflect the Department's and NPS's highest land acquisition 
priorities. The fiscal year 2011 budget request includes $1,764,432 to 
acquire a 22.9-acre tract at Acadia National Park. The tract, which 
borders Round Pond and is in a very secluded section of Mount Desert 
Island, was determined to be the highest acquisition priority at the 
park. The second-highest acquisition priority at the park, and the 
subject of your inquiry, is the 39-acre tract valued at $3,000,000 
located at Lower Hadlock Pond. This tract will be evaluated for 
potential acquisition in future budgets.

                          SUBCOMMITTEE RECESS

    Senator Feinstein. The hearing is recessed.
    [Whereupon, at 11:03 a.m., Wednesday, March 10, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
